<html>
<title> - REFORM IN K-12 STEM EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                     REFORM IN K-12 STEM EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2010

                               __________

                           Serial No. 111-82

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
55-840PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY





                            C O N T E N T S

                             March 4, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

                               Witnesses:

Dr. Jim Simons, Founder and Chairman, Math for America, Chair of 
  the Board, Renaissance Technologies LLC
    Oral Statement...............................................    11
    Written Statement............................................    15
    Biography....................................................    18

Ms. Ellen Futter, President, American Museum of Natural History
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    26

Dr. Gordon Gee, President, Ohio State University
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    33

Dr. Jeffrey Wadsworth, President and CEO, Battelle Memorial 
  Institute
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    40

Discussion.......................................................    40

              Appendix: Additional Material for the Record

Statement by Vartan Gregorian, President, Carnegie Corporation of 
  New York.......................................................    54

 
                     REFORM IN K-12 STEM EDUCATION

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     Reform in K-12 STEM Education

                        thursday, march 4, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 4, 2010, the House Committee on Science and 
Technology will hold a hearing to receive testimony on innovative 
efforts to reform K-12 science, technology, engineering, and 
mathematics (STEM) education, and the critical importance of K-12 STEM 
education to our nation's prosperity and economic competitiveness. In 
particular, in preparation for reauthorization of the America COMPETES 
Act, we will be examining the role of the Federal agencies in 
supporting improvements in K-12 STEM education and promoting STEM 
literacy.

2. Witnesses

        <bullet>  Dr. Jim Simons, Founder and Chairman, Math for 
        America

        <bullet>  Ms. Ellen Futter, President, American Museum of 
        Natural History

        <bullet>  Dr. Gordon Gee, President, Ohio State University

        <bullet>  Dr. Jeffrey Wadsworth, President and CEO, Battelle

3. Overarching Questions

        <bullet>  What are the major barriers to increasing student 
        interest and performance in STEM? What are some model programs 
        and approaches that have had the most success in improving 
        interest and performance in the STEM fields in elementary, 
        middle, and high school? What are the common characteristics of 
        effective programs? What data are available to support the 
        effectiveness of such programs? How can programs with evidence 
        of success serve as models of best practices and be brought to 
        scale?

        <bullet>  How can the Federal Government, including the science 
        agencies, best support and catalyze innovative reform efforts 
        in K-12 STEM education? How can the agencies help to improve 
        STEM literacy among the general population?

        <bullet>  What role can public-private partnerships play in 
        strengthening K-12 STEM education? How can foundations, private 
        companies, universities, informal STEM educators, the Federal 
        Government, and other stakeholders work with States and local 
        education agencies to improve K-12 STEM education in the 
        classroom? What kinds of partnerships are most effective at 
        leveraging resources, both financial and intellectual?

4. Background

    A consensus now exists that improving STEM education throughout the 
Nation is a necessary, if not sufficient, condition for preserving our 
capacity for innovation and discovery and for ensuring U.S. economic 
strength and competitiveness in the international marketplace of the 
21st century. The National Academies Rising Above the Gathering Storm 
report emphasized the need to improve STEM education and made its top 
priority increasing the number of highly qualified STEM teachers. The 
2007 America COMPETES Act implemented this recommendation by expanding 
and strengthening two key National Science Foundation (NSF) teacher 
training programs.
    Two more recent STEM education reports that have generated a lot of 
attention have emphasized, as part of their priority recommendations, 
the need for greater coordination between the many public and private 
stakeholders in the nation's K-12 STEM education system. The reports 
are: A National Action Plan for Addressing the Critical Needs of the 
U.S. STEM Education System, from the National Science Board,\1\ and The 
Opportunity Equation, from the Carnegie Corporation's Institute for 
Advanced Study.\2\ The stakeholders cited in these reports include the 
Federal and State governments, colleges and universities, businesses, a 
variety of nonprofit organizations, philanthropic organizations, and of 
course, school districts themselves.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/nsb/documents/2007/
stem<INF>-</INF>action.pdf
    \2\ http://www.opportunityequation.org/

K-12 STEM Education across the Federal agencies
    President Obama's FY 2011 budget request invests $3.7 billion in 
STEM education programs across the Federal Government, including $1 
billion to improve STEM education among K-12 students, an increase of 
over 40 percent. Of that $1 billion, nearly half would be at the 
Department of Education: $300 million for the proposed Effective 
Teaching and Learning in STEM program, and $150 million through the 
Investing in Innovation (i3) program. The rest of the funding is spread 
across the Federal science agencies.
    All of the Federal science agencies fund a variety of programs and 
activities designed to improve K-12 STEM education. K-12 STEM education 
at NASA, the Department of Energy, NOAA, and the other mission agencies 
vary widely by type of program and target audience, with activities 
ranging from curriculum development and professional development 
opportunities for teachers, to age-appropriate field trips, online 
resources, research opportunities, and internships for elementary and 
secondary school students.
    In a 2007 inventory of Federal STEM education programs, the 
Academic Competitiveness Council (ACC) identified 105 programs and 
approximately $3.12 billion in Fiscal Year 2006 appropriated funds 
across the Federal agencies for STEM education at all levels, including 
24 programs designed for K-12 students funded at approximately $574 
million. However, the ACC set parameters on its inventory, limiting the 
programs for inclusion to those ``primarily intended to provide support 
for, or to strengthen, science, technology, engineering, or mathematics 
education.'' As a result, the ACC inventory excluded many educational 
activities supported by the Federal R&D mission agencies that are 
managed through larger research programs and offices, including major 
research facilities, and that do not show up as separate line items in 
the budget. In a Committee on Science and Technology analysis of K-12 
STEM education programs across the agencies within the Committee 
jurisdiction, staff has found evidence of tens of millions of dollars 
worth of programs that were not identified in the ACC report. For 
example, Committee staff have identified more than 50 programs designed 
to improve K-12 STEM education at NASA alone, with funding ranging from 
a few thousand dollars to more than $35 million in FY 2008.

K-12 STEM Education at NSF
    Historically, NSF's mission has included supporting and 
strengthening science and math education programs at all levels. In the 
area of K-12, NSF carries out its mission by funding a variety of 
science and math education activities, including teacher training (both 
in-service and pre-service), curriculum development, education 
research, and informal education at museums and science centers. The 
majority of K-12 STEM education activities at the Foundation are 
supported by the Education and Human Resources Directorate (EHR).
    Within EHR in the Division of Undergraduate Education, examples of 
NSF programs designed to improve K-12 teacher performance include the 
Math and Science Partnership (MSP) program and the Robert Noyce 
Scholarship (Noyce) program, both strengthened and expanded in 2007 as 
part of The America COMPETES Act.
    Within EHR's Division on Research on Learning in Formal and 
Informal Settings, programs targeted to K-12 education include the 
Discovery Research K-12 program, which funds everything from basic 
research on learning and teaching to the development and implementation 
of tools, resources, curricula, models and technologies based on the 
research findings; the Informal Science Education program, which funds 
projects that advance informal STEM education; and the Research and 
Evaluation on Education in Science and Engineering program, which seeks 
to improve the methodology of education research and evaluation of 
education tools and models to ensure high-quality research results and 
effective program development.
    In the President's FY 2011 Budget Request, the Education and Human 
Resources Directorate would be funded at $892 million, an increase of 
only $19.2 million or 2.2 percent over FY 2010 funding. In the FY 2011 
budget, the Noyce program would be funded at $55 million, the same 
level since FY 2009, and MSP would be funded at $58.2 million, the same 
level as in FY 2010 and a small decrease from FY 2009 funding.

Race to the Top
    The U.S. Department of Education's $4 billion dollar Race to the 
Top competitive-grant program included a competitive preference for 
States with a demonstrated emphasis in STEM. The competitive 
preference, worth 3 percent of a State's total application score, has 
prompted many States to make STEM education a priority in their reform 
efforts. Additionally, the Race to the Top application guidelines 
encourage systemic reform, pressing States to implement interconnected 
reforms that include partnerships between the many STEM education 
stakeholders groups, including those represented in the witness panel 
here today. President Obama's FY 2011 budget request includes $1.35 
billion to continue the Race to the Top program.

Educate to Innovate
    President Obama also launched the ``Educate to Innovate'' campaign 
to improve the participation and performance of America's students in 
STEM. As part of the campaign, the President announced a series of 
public-private partnerships involving private companies, nonprofits, 
universities and other key stakeholder groups, focused on inspiring and 
educating K-12 students in STEM.

5. Questions for Witnesses

    Witnesses today represent a university, a large company, a non-
profit informal science provider, and a non-profit organization that 
invests in teacher training. All of these witnesses and their 
organizations are deeply committed to improving K-12 STEM education and 
will discuss how each of their organizations can uniquely contribute to 
this effort.

Jim Simons

        1.  Please describe the mission and programs of Math for 
        America. What are the most important and effective components 
        of the Math for America model? How have you evaluated the 
        effectiveness of Math for America's programming? Are there any 
        lessons learned from the Math for America experience regarding 
        scaling and replication of proven-effective programs? In your 
        experience, what unique role can non-profit organizations and 
        the private sector play in supporting the teaching and learning 
        of K-12 STEM, both locally and nationally?

        2.  What partnerships have you built in support of your 
        programming--in terms of both financial support and 
        intellectual resources? What have been the key factors to the 
        success of such partnerships? How best can non-profit 
        organizations partner with other public and private sector 
        stakeholders, including local schools, businesses, colleges and 
        universities, to take on systemic reform of K-12 STEM education 
        in a community or region?

        3.  What has been your experience with K-12 STEM education 
        programs supported by the National Science Foundation or the 
        other Federal agencies? What specific steps would you recommend 
        the Federal Government take to improve the state of K-12 STEM 
        education in the country?

Gordon Gee

        1.  Please describe Ohio State University's K-12 science, 
        technology, engineering and mathematics (STEM) education 
        programs and initiatives, in particular programs for K-12 
        students and pre-service and in-service teachers, as well as 
        education research with a STEM focus. In your experience, what 
        unique role can institutions of higher education, such as your 
        own, play in supporting the teaching and learning of K-12 STEM 
        both locally and nationally?

        2.  What partnerships has your university built, with both 
        local schools and the private sector, to address STEM 
        education? What have been the key factors to the success of 
        such partnerships? How best can universities and colleges work 
        with public and private sector stakeholders, including state 
        and local governments, K-12 schools, business, and non-profits, 
        to take on systemic reform of K-12 STEM education in a 
        community or region?

        3.  What involvement has Ohio State had with K-12 STEM 
        education programs at the National Science Foundation and other 
        Federal agencies? What specific steps would you recommend the 
        Federal Government take to improve the state of K-12 STEM 
        education in the country?

Ellen Futter

        1.  Please describe briefly the American Museum of Natural 
        History's science, technology, engineering, and math (STEM) 
        education programs and initiatives. In your experience, what 
        unique role can museums and other informal education 
        institutions play in educating students and the public about 
        STEM? What role can museums play in supporting the teaching and 
        learning of K-12 STEM both locally and nationally?

        2.  What partnerships has your museum built, with both local 
        schools and other stakeholders, to address K-12 STEM education? 
        How has your museum adapted its programming to meet the needs 
        of schools and States? What have been the key factors to the 
        success of such partnerships? How can museums best work with 
        public and private sector stakeholders, including local 
        schools, businesses, colleges, universities, and non-profits, 
        to take on systemic reform of K-12 STEM education in a 
        community or region?

        3.  What has been your experience with K-12 STEM education 
        programs supported by the National Science Foundation or the 
        other Federal agencies? What specific steps would you recommend 
        the Federal Government take to improve the state of K-12 STEM 
        education in the country?

Jeffrey Wadsworth

        1.  Please describe briefly Battelle's science, technology, 
        engineering, and math (STEM) education programs and 
        initiatives. In your experience, what unique role can 
        businesses and corporations play in supporting the improvement 
        of teaching and learning of K-12 STEM both locally and 
        nationally?

        2.  What partnerships has Battelle been involved in, with both 
        elementary and secondary schools and other stakeholders, to 
        address K-12 STEM education? What have been the key factors to 
        the success of such partnerships? How can business interested 
        in promoting and improving STEM education best work with public 
        and other private sector stakeholders, including local schools, 
        businesses, colleges, universities, and non-profits, to take on 
        systemic reform of K-12 STEM education in a community or 
        region?

        3.  What has been your experience with K-12 STEM education 
        programs supported by the National Science Foundation, the 
        Department of Energy, or the other Federal agencies? What 
        specific steps would you recommend the Federal Government take 
        to improve the state of K-12 STEM education in the country?
    Chairman Gordon. This hearing will come to order.
    Good morning. I would like to welcome my fellow Committee 
Members and our distinguished panel of witnesses as well as all 
our guests here for what I know will be a valuable discussion 
on reform of K-12 science, technology, engineering and math, or 
STEM, education.
    Our Committee has repeatedly heard that we need more STEM-
educated graduates and teachers if we want to continue to be 
leaders in the global economy and maintain a high standard of 
living for all Americans.
    As many of you know, in 2007 Congress passed and the 
President signed into law the Committee's landmark legislation, 
the America COMPETES Act. The COMPETES Act sought to ensure not 
only that our Nation will produce the world's leading 
scientists and engineers, but also that all students will have 
a strong grounding in math and science. Through the COMPETES 
Act, we expanded and strengthened the key teacher training 
programs, including the Robert Noyce Teacher Scholarship 
program at the National Science Foundation. As I am sure you 
all know, we used the Math for America model in establishing a 
new component of the Noyce program in COMPETES. We are 
fortunate to have Math for America's Founder, Dr. Jim Simons, 
with us here today.
    COMPETES focused on improving teacher training, but there 
is still more work to do. This year our Committee is 
reauthorizing the America COMPETES Act. This reauthorization 
will give us the opportunity to strengthen existing programs 
and focus on ways to make more efficient and effective use of 
the limited resources we have to support real reform in STEM 
education. STEM education in this country is a problem that no 
one entity can solve alone. There is a role for all the key 
stakeholders, including Federal, state, local school districts, 
higher education and industry, and we must coordinate our 
efforts to leverage our resources.
    The witnesses today represent a wide range of stakeholders 
in STEM education who have all been actively involved in 
efforts to improve K-12 STEM education, both locally and 
nationally. I look forward to hearing from them about how 
universities, private companies, nonprofits and other public 
and private stakeholders can work in partnership to bring about 
systematic reform in STEM education.
    I want to thank all of the witnesses for your ongoing work 
and dedication to improving the quality of STEM education in 
this country, and for taking the time to appear before the 
Committee this morning. I look forward to hearing your 
testimony. And I think it is interesting that we have two 
expatriate Tennesseans here, the first Noyce scholar, who not 
only took that education into the academic area but also in the 
private sector, and I suspect has paid a lot of taxes that has 
reimbursed that Noyce scholarship since, and also the president 
of my nine-year-old daughter's favorite type of museum. So we 
have an excellent panel.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning. I'd like to welcome my fellow Committee Members and 
our distinguished panel of witnesses for what I know will be a valuable 
discussion on reform in K-12 science, technology, engineering, and math 
(or STEM) education.
    Our Committee has repeatedly heard that we need more STEM educated 
graduates and teachers if we want to continue to be leaders in the 
global economy and maintain a high standard of living for all 
Americans.
    As many of you know, in 2007 Congress passed and the President 
signed into law the Committee's landmark legislation, the America 
COMPETES Act. The COMPETES Act sought to ensure not only that our 
Nation will produce the world's leading scientists and engineers but 
also that all students will have a strong grounding in math and 
science. Through the COMPETES Act, we expanded and strengthened key 
teacher training programs, including the Robert Noyce Teacher 
Scholarship program at the National Science Foundation. As I'm sure 
many of you know, we used the Math for America model in establishing a 
new component of the Noyce program in COMPETES. We're fortunate to have 
Math for America's Founder, Jim Simons, with us here today.
    COMPETES focused on improving teacher training, but there is still 
more work to do. This year our Committee is reauthorizing the America 
COMPETES Act. This reauthorization will give us the opportunity to 
strengthen existing programs and focus on ways to make more efficient 
and effective use of the limited resources we have to support real 
reform in STEM education. STEM education in this country is a problem 
that no one entity can solve alone. There is a role for all the key 
stakeholders, including Federal, state, local school districts, higher 
education, and industry. But we must coordinate our efforts and 
leverage all our resources.
    The witnesses today represent a range of key stakeholder groups in 
STEM education who have all been actively involved in efforts to 
improve K-12 STEM education, both locally and nationally. I look 
forward to hearing from them about how universities, private companies, 
non-profits, and other public and private stakeholders can work in 
partnership to bring about systemic reform in STEM education.
    I want to thank all of the witnesses for your ongoing work and 
dedication to improving the quality of STEM education in this country, 
and for taking the time to appear before the Committee this morning. I 
look forward to your testimony.

    Chairman Gordon. The Chair now recognizes Mr. Hall for an 
opening statement.
    Mr. Hall. Mr. Chairman, thank you, and I see those 
Tennesseans. You know what I always tell you, I am graping up 
to you when I do that, how much Tennesseans meant to Texas, and 
I told the Chairman one time there wouldn't be a Texas if it 
hadn't been for Tennessee, and he said there wouldn't have been 
one anyway if the Alamo had had a back door to it. I never get 
ahead of the Chairman.
    Well, I thank you, Mr. Chairman, for this hearing, and of 
course it is good for us to hear from such a distinguished 
group, particularly as we move forward on reauthorizing the 
Act. We have a difficult task in front of us with this 
forthcoming legislation. On the one hand, we know that making 
the appropriate investments in research, development, 
technology and math and science education including, of course, 
educating, motivating and inspiring our children about STEM, 
science, technology, engineering and math, subjects at a very 
early age are essential to our future economic prosperity. This 
country has long been the leader in innovation. I have no doubt 
that we are going to continue to be so. At the same time, we 
are faced with the stark reality that we have to strike a 
delicate balance between adequately funding our Nation's 
priorities while at the same time exhibiting fiscal restraint 
to reduce our ever-increasing deficit.
    In the last COMPETES Act, we made great strides to improve 
K-12 STEM education in this country. As such, I believe we need 
to give these programs time to succeed before creating new 
ones. I am pleased to see that the President is trying to get 
the Department of Education to focus more on STEM programs but 
I am concerned that the National Science Foundation's unique 
and critical role in K-12 has been somewhat diminished in the 
fiscal year 2011 budget request. It is not so much the case 
that we need to reform K-12 STEM education by continuing to 
seek new and innovative ways to capture our students' 
attention, as this Nation is full of good, solid examples of 
teachers, schools and communities that are getting it right. I 
refer to the Martha and Josh Morris Mathematics and Engineering 
Elementary School in Texarkana, Texas. It is just one of these 
schools. I know, Mr. Chairman, that I mention it often but you 
have been to that school with me and you know how innovative 
and successful it is, a true collaboration between the school 
district, the local university, industry, and the willingness 
of the community to embrace it.
    Rather, we need to be able to figure out a way to share 
these successful programs, the tools they use and the various 
entities that came together to create them so that they can be 
replicated across the country without being heavy-handed on the 
Federal end. I know one size does not fit all but there are 
many good programs out there already in existence. I bet we are 
getting ready to hear about a few more, so with that, I would 
like to thank our witnesses for being here today and I look 
forward to your testimony.
    Before I yield back the balance of my time, I would like to 
yield to somebody that is not here. I yield back to you, Mr. 
Chairman. Thank you.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, for calling this hearing today. It is good 
for us to be able to hear from such a distinguished group on what role 
each of their organizations play in improving K-12 STEM education, 
particularly as we move forward on reauthorizing the America COMPETES 
Act.
    We have a difficult task in front of us with this forthcoming 
legislation. On the one hand, we know that making the appropriate 
investments in research, development, technology, and math and science 
education--including educating, motivating, and inspiring our children 
about STEM (science, technology, engineering and math) subjects at an 
early age--are essential to our future economic prosperity. This 
country has long been the leader in innovation, and I have no doubt 
that we will continue to be so. At the same time, we are faced with the 
blunt reality that we must strike a delicate balance between adequately 
funding our nation's priorities while at the same time exhibiting 
fiscal restraint to reduce our ever increasing deficit.
    In the last COMPETES bill, we made great strides to improve K-12 
STEM education in this country. As such, I believe we need to give 
those programs time to succeed before creating new ones. I am pleased 
to see that the President is trying to get the Department of Education 
to focus more on STEM programs, but I am concerned that the National 
Science Foundation's unique and critical role in K-12 has been somewhat 
diminished in the FY11 budget request. It is not so much the case that 
we need to ``reform'' K-12 STEM education by continuing to seek new and 
innovative ways to capture our students' attention as this Nation is 
full of good, solid examples of teachers, schools, and communities that 
are getting it right. (The Martha and Josh Morriss Mathematics and 
Engineering Elementary School in Texarkana, TX, is just one of those 
schools. I know, Mr. Chairman, that I mention it often, but you have 
been to that school with me and know just how innovative and successful 
it is--a true collaboration between the school district, the local 
university, industry and the willingness of the community to embrace 
it.) Rather, we need to be able to figure out a better way to share 
these successful programs, the tools they use, and the various entities 
that came together to create them so that they can be replicated across 
the country, without being heavy-handed on the Federal end. I know one 
size does not fit all, but there are many, good programs out there 
already in existence.
    I bet we are getting ready to hear about a few more, so with that, 
I would like to thank our witnesses for being here today, and I look 
forward to your testimony. I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall.
    At this time I would like to introduce our witnesses. 
First, Dr. Jim Simons is the Founder and Chairman of Math for 
America and the Chairman of the Board of Renaissance 
Technology. Dr. Simons really is a good example of the 
evolution here of STEM education in that he started off, as I 
said, as the first Noyce scholar, then was successful in the 
academic area, then successful in the private sector, and now 
in a philanthropic way he is trying to give back through Math 
for America. So it really shows the evolution and how this is a 
good investment. Dr. Ellen Futter is the President of the 
American Museum of Natural History in New York City, and I 
would recommend to everyone that if you may go to New York for 
a play, for this or that, but if you are there, you should go 
to the Museum of Natural History. It is a great resource, and 
it is more than just a place to look, in that you have a lot of 
good programs there.
    Now I would like to yield to my distinguished colleague 
from Ohio, Mr. Wilson, to make an introduction.
    Mr. Wilson. Thank you, Mr. Chairman.
    Today, ladies and gentlemen, I have the great privilege of 
introducing to the Committee Dr. Gordon Gee, a good friend of 
mine and the President of the Ohio State University. In 
addition to a previous tenure as the President of Ohio State, 
Dr. Gee has also served as the President of Vanderbilt, Brown, 
the University of Colorado and West Virginia University. I was 
proud to have two sons graduate from OSU during his first tour 
of duty there and hope to see a few of my grandchildren 
graduate during this tour of duty for you. For a guy who 
doesn't like to stay in the same place a long time, we are so 
glad that you are back at OSU. Welcome back, and thank you for 
being there.
    Dr. Gee, I want to also thank you for your commitment to 
improving STEM education in the State of Ohio. Your innovative 
approaches have set an example for other universities and are 
why you have been asked to come here today and to speak to our 
Committee. And while I know testifying before this committee 
can't be half the fun that we had the last time when you and I 
journeyed to California for the Rose Bowl and saw the very 
successful Ohio State University perform, we are looking 
forward to hearing from you today and thank you so much for 
being here.
    Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Wilson.
    I yield now to my distinguished colleague, Ms. Fudge, to 
introduce our fourth and final witness.
    Ms. Fudge. Thank you, Mr. Chairman.
    Mr. Chairman, before I do that, since I am a proud alumnus 
of the Ohio State University, I too would like to welcome my 
president, President Gee.
    It is my pleasure indeed today and I am very excited to 
introduce Dr. Jeffrey Wadsworth, CEO of Battelle Memorial 
Institute. Battelle has been the leader in Ohio STEM 
initiatives, and I have witnessed the results of these efforts 
firsthand when I attended the opening of the revolutionary MC 
Squared STEM High School in my district, Cleveland, Ohio. 
Battelle also manages the Ohio STEM Learning Network [OSLN], 
which is an unprecedented collaborative aimed at building and 
connecting STEM teaching and learning capacity in regions 
across the State of Ohio. Cleveland serves as one of OSLN's 
five regional hubs, and I am truly astounded at the strength of 
the partnerships that are present in my district. I just want 
to say personally, having lived in Columbus for some time when 
I was a student at Ohio State, for a long time I never knew 
what Battelle was but I knew that it was important because it 
had the biggest buildings, the most beautiful campus, and 
people talked about Battelle all the time. So I want you to 
know, it is a pleasure for me to finally work with Battelle 
because I have been so impressed by what you have done for so 
very many years.
    Dr. Wadsworth, thank you for your leadership in these 
efforts and I look forward to your testimony. Welcome.
    Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Fudge. I have just 
unfortunately been informed that it looks like we are going to 
have votes maybe a little bit before 11, so I want to try to 
move us forward and we can all get our questions in. Most 
importantly, we want to hear from the witnesses. So without any 
further discussion, Dr. Simons, please begin with your 
testimony.

 STATEMENTS OF DR. JIM SIMONS, FOUNDER AND CHAIRMAN, MATH FOR 
   AMERICA, CHAIR OF THE BOARD, RENAISSANCE TECHNOLOGIES LLC

    Dr. Simons. OK. Well, thanks again, and I am over the mic, 
and Ranking Member Hall. You have heard who I am so I don't 
need to tell you again. I certainly appreciate the work that 
your Committee is doing and in particular we focus on the 
America COMPETES Act and the Noyce program, which we were 
fortunate enough to have us give some help to its shape, and we 
will get back to that soon.
    I have submitted some written testimony but I will try to 
make my remarks even briefer since these votes are----
    Chairman Gordon. We would rather hear from you than us, so 
you go right ahead.
    Dr. Simons. Well, that is OK. Well, you know, it is clear 
that these economic wars are heating up between us and our 
competitors. We have a lot of advantages. You know, we have 
some important assets. We have big companies. We have a lot of 
money and we have great research universities. But what we 
lack, and what could do us in, is a lack of technically trained 
young people, because too few of our high school graduates go 
on to study math and science and engineering, just too few. And 
why is this? Well, I am going to argue here, but it is due to a 
lack of knowledgeable and inspiring high school teachers. So it 
comes down a little thing, relatively speaking: teachers who 
know their subject, and particularly in high school. And we 
just don't have enough of them. So I think the most cost-
effective investment our government can make in the future of 
America is to ensure that secondary school teachers of math and 
science are knowledgeable in their fields, and simply due to 
the law of supply and demand, that is not the case today.
    As a result, the quality of STEM education in our upper 
grades is far below that of our most formidable competitors. 
And if this situation is not soon remedied, our Nation will be 
fatally hobbled, and I really mean that, as it strives to excel 
in a technology-based economy of this next century.
    So what do we do today? How do we manage? Well, a 
combination of two things: we import people, and a lot of them, 
through various visa programs who can fill these gaps, and we 
export jobs to companies abroad by farming out the work that we 
do. There are just not enough trained Americans to fill these 
slots. Now, importing people is not a long-term solution. India 
and China, who supply a lot of these folks, are doing just 
dandy themselves and there will be more and more excellent 
opportunities for those people to stay at home, and you can 
already see that. And as far as exporting the jobs, exporting 
work, well, we will just end up having fewer and fewer high-
margin companies in the United States. That is not a 
satisfactory outcome.
    So what does it mean to be a technically trained person? 
Well, you have to get a bachelor's degree in math or science or 
engineering. But who chooses to major in those subjects? Well, 
someone who is prepared and inspired, that is who chooses it. 
Those subjects are hard, and there are a lot of less-strenuous 
things you can do in college besides become an engineer or a 
physicist or a biologist. Those are hard things. So why do 
people do it? They do it because they come out of high school 
enthused with a good background and excited about going into 
those fields. But if they are not so trained and excited in 
high school, they are just not going to make those majors.
    Now, I want to look at you all on the Committee, and for 
that matter, whoever else is listening. So if you as an adult--
I am assuming I am talking to adults--were to take a course, 
whether it was Italian, psychology or cooking, at the top of 
your list of expectations would be a teacher who knew the 
subject. No matter whatever marvelous qualities that instructor 
might have, if he or she didn't know the subject, you would 
feel cheated. Now, I have to tell you that in math and science, 
millions of American high school kids are cheated this way 
every day, and regrettably, due to their parents typically 
being unfamiliar with these subjects, most students and their 
parents never know the difference. You would know if your 
cooking teacher didn't know how to cook but you wouldn't 
necessarily know that your teacher who is supposed to be 
teaching you quadratic equations doesn't quite understand what 
factorization is all about or whatever.
    Now, the most recent studies, and I am focusing on math 
here because that is what we pay attention to, it is pretty 
fundamental but it goes for science as well, these reports show 
that by 4th grade we do pretty well compared to other 
countries. We are better than average. By 8th grade, the end of 
8th grade, we are about average. But by 12th grade, we are 
right at the bottom. We have gone right to the bottom. What 
happened? What happens between 9th and 12th grade that makes 
these students who were doing excellently or well in 4th grade, 
decently in 8th grade, why do they all of a sudden do terribly 
when they get to 12th grade?
    Now, it is not a case of the underprivileged kids or 
whatever bringing the average down. In fact, our top 10 percent 
does worse than everybody else's top 10 percent, in fact, even 
worse than you might expect by the differences in the average. 
So simply put, our kids do worse than our competitors' kids in 
every ability range.
    So why is this? What happens to us? Why do we stand so low 
in these international rankings? Well, there may be more than 
one reason. But one reason really stands out. Other teachers' 
standards of content knowledge for teachers, countries' 
standards for content knowledge for teachers of math and 
science are far more stringent than they are in the United 
States, and this is particularly the case when it comes to the 
Asian countries where first-class STEM education is a high 
national priority.
    Now, you can try to work around this. Various approaches 
have been proposed. You could have better technology in the 
classroom, lectures over the Internet, new curricula, kids 
lugging around even bigger books, and believe me, they are 
pretty big now. These initiatives might help some but there is 
no substitute for a teacher who actually knows what she is 
talking about and whose enthusiasm is inspiring, and I will bet 
everyone sitting up there today has had one or more teachers 
who has really made a difference in his or her life, whether it 
was in law school or wherever it may have been, someone who 
inspired you, and I am certain that no teacher would ever have 
inspired you if he or she didn't know the subject that they 
were teaching.
    So what happens? Why don't we have enough teachers who know 
the subject in math and science in high school? And the answer 
is that teaching math or science in an American high school is 
simply not a very good job, measured both by compensation and 
level of respect. A person with the background and ability to 
do that job well can find many more attractive opportunities, 
and as the economy continues to increase its dependence on 
technology, this gap will only widen, and this is sort of the 
amazing thing. The very economy which is dependent on these 
people is stripping the classroom of those who can best train 
these people.
    So I just want to digress for a second and bring you back 
to 1941. Now, I was three in 1941 and most of you were not 
around in 1941, but it was an interesting year because that is 
when we got into the Second World War and we needed to train a 
lot of pilots and we needed to do it fast because we didn't 
have anywhere near enough pilots in the Air Force. So when each 
class had completed its training, ready to go out to action, a 
few class members were kept behind to teach, and these were the 
best pilots on the class because the Air Force reckoned there 
was more value in their teaching than in their fighting, at 
least right away. After a while they went to war and showed 
their stuff, but even though if a guy became an ace, you know, 
shot down five planes, whatever, what do you think they did? 
They brought him back to teach. They brought him back to 
inspire the new guys coming along. So the Air Force understood 
that by and large, obviously there were exceptions, the best 
pilots made the best and most inspiring teachers.
    And in this economic contest that we are getting ourselves 
into here big time, we do the exact opposite. The best go forth 
and the worst stay back to teach. Now, obviously there are 
exceptions. This is not every teacher in STEM education high 
school has no content knowledge. That is certainly not true. 
But too few do, and that is the problem. So there is really 
only one way to attract and retain a higher quality math and 
science secondary school teacher: pay them more money and 
provide them with more respect. Now, anyone who runs a business 
understands that if you can't get enough welders or whatever it 
is or good ones, you are going to pay more and you get more 
good welders. But we don't seem to really understand that in 
the school situation. We just have to increase the compensation 
and the respect that these people get. Otherwise they ain't 
coming.
    So we founded MFA [Math for America] six years ago as a 
pilot to address this, and I will just briefly say what we do, 
because I don't want to take away from Ellen, in particular, 
sitting next to me. We bring these kids in, typically young 
people but not all, into a fellowship program. We advertise. 
They come in, they take a test of knowledge. Do you know math? 
We give them a test. It is a good test. Then we interview them 
to see, gee, you know, would you do OK in a classroom, and if 
they pass those two things, we take them into the program. 
These are people who have typically majored in math or physics 
of engineering in college so they know the subject, they passed 
the test. We plunge them into a one-year immersion in education 
courses so they get a master's degree in education. They have 
the ticket and they can go and teach. We pay the tuition. We do 
this at Columbia or NYU in New York and other schools in 
California and so on. We pay the tuition. We give them a 
fellowship, $30,000, which is what you get as a teaching 
assistant somewhere if you were a graduate student, and then 
they go into the classroom, they teach four years as part of 
this program and we give them a stipend which escalates and 
ends at about $20,000 at the end of the fourth year and that is 
on top of their teacher's pay, and we give them lots of support 
in the meantime. We have seminars and lunches and all kinds of 
great things, and they get mentored by the people who come in 
on the other prong of the program, master teachers, and at the 
end of their four years of teaching they can apply to the next 
prong to become a master teacher, and a master teacher is a 
teacher who is already there who is an expert, considered very 
good by his peers and his principal, who passes the test. He or 
she knows his subject. And we pay them for two reasons. We pay 
them $15,000 a year on top of their salary and they have two 
responsibilities: one, keep teaching, and two, mentor the young 
people in the program who are coming along. And the spirit and 
the effect of this program is really dynamic, and I think Bart 
Gordon can testify to that. He came to our annual dinner of all 
the fellows and master teachers a few months ago and you could 
see, it was electric. It was really electric. These people were 
enthused about what they were doing. They were proud of what 
they were doing and accomplishing a great deal. So this is a 
model of a program. It is not the only way to do it, but 
nothing is going to work unless it includes more comp[ensation] 
and more respect.
    So that is my message to you guys. Keep it up. The Noyce 
program is great. Let us make it bigger and let us find ways to 
really do this on a very big scale, whether it through Noyce or 
something else. This is a critical issue, a critical issue. OK.
    [The prepared statement of Dr. Simons follows:]
                 Prepared Statement of James H. Simons
    Good Morning Chairman Gordon, Ranking Member Hall and Members of 
the Committee. My name is Jim Simons and I am here today as the 
Chairman and Founder of Math for America (Mf A) which was created to 
offset the alarming shortage of knowledgeable mathematics teachers in 
our public schools.
    We appreciate your continued focus to improve mathematics and 
science education in our secondary schools and for recognizing the 
importance of a high quality science and math teaching workforce. The 
Congressional Innovation Agenda championed by this committee over the 
past two years, including the passage of the America COMPETES Act, has 
reinvigorated the essential role of math and science education in our 
country.
    While I was especially pleased that Chairman Gordon, using the Mf A 
model of stipends, scholarships and support, included an amendment to 
the COMPETES bill to substantially bolster the existing Robert Noyce 
Scholarship program, I strongly believe we need to continue to 
strengthen that effort during this reauthorization process.
    Before talking about Math for America I wanted to give you a brief 
glimpse of my personal background and how mathematics has been the 
driving force in my life.
    I am Chairman and Founder of Renaissance Technologies. The 
company's investment approach, fueled by my background in mathematics, 
has been enormously successful. Before I entered the business world, I 
was a mathematician. I have a Ph.D. from Berkeley, won the 1975 Veblen 
Prize of the American Mathematical Society and taught mathematics at 
Massachusetts Institute of Technology and Harvard University before 
becoming chairman of the mathematics department at the State University 
of New York at Stony Brook.
    Along the way, I spent four years as a code breaker for the 
National Security Agency.
    I serve as a Trustee of The Institute for Advanced Study, The 
Rockefeller University, MIT, the Mathematical Sciences Research 
Institute in Berkeley and Brookhaven National Laboratory. With my wife 
Marilyn, I am actively engaged with my charitable foundation, the 
Simons Foundation. Recently, we created The Simons Center for Geometry 
and Physics at Stony Brook which looks at the crucial interdependence 
between theoretical physics and the geometric side of mathematics. More 
recently, we initiated a Postdoctoral Fellows Program to support 68 
postdoctoral positions at 46 universities. These will be three-year 
positions in mathematics, mathematical physics and theoretical computer 
science.
    With Marilyn's leadership, the Simons Foundation seeks to advance 
math and science research through grant making that particularly 
encourages collaborations between the physical and life sciences. We 
fund studies aimed to heighten interchanges between institutions, 
across fields, and among scientists to facilitate the exchange of new 
ideas. I am especially proud of the significant work of the Simons 
Foundation Autism Research Initiative, which supports research to 
better understand the causes of autism. This initiative is the world's 
largest private investment in the field of autism research.
    It's an honor for me to be here today to discuss strategies to 
improve student achievement by creating an environment that encourages 
people with high content knowledge in math and science to establish 
successful careers as public schools teachers.
    Drawing a straight line from the problem to the solution, the 
simple answer for improving STEM education is to have the best, most 
knowledgeable teachers in the classroom. My thesis is that unless we 
meaningfully and immediately increase the level of respectability and 
compensation earned by secondary school mathematics teachers with 
strong knowledge in their subject, our nation will continue to lose its 
competitive edge in the technology based global economy of the 21st 
century.
    Our economy is increasingly dependent upon technology that uses 
math as the starting point, and there are many private sector career 
opportunities for a young person with math skills and knowledge in 
finance, technology and research. Given that, flat salaries for 
teachers are thwarting the supply and demand. If we want knowledgeable 
mathematics and science teachers in the classroom, we must dramatically 
increase their compensation and give them the respect they deserve.
    This is a supply and demand issue. It's clear that the widening 
salary gap, between quantitative skills based private sector jobs and 
teaching jobs in our secondary schools, has discouraged many capable 
people from launching a career in teaching. Taking that into account, 
as well as the unlikelihood that those private sector jobs will 
decrease their compensation in the years ahead, we instead need to 
increase teaching salaries to make teaching a legitimate career option. 
By doing so, we are providing our students with the edge they need to 
keep the Nation competitive and progressive.
    The relative weak ranking of US students in international 
assessment tests clearly demonstrates the urgency. The most recent 
TIMSS (Trends in International Math and Science Study) report shows 
that by the eighth grade, our students are rated average in 
mathematics, and by the twelve grade, they drop to near the bottom. 
Moreover, even our top 10 percent does worse when compared to the top 
10 percent of most other countries. Research indicates that the best 
performing nations employ rigorous entry requirements and high 
standards for teachers, and that high performing students in math and 
science more likely had teachers with content-specific training. We are 
facing an economic onslaught of a highly competitive global workforce, 
causing us to fall behind to some measure because of the more rigorous 
teacher preparation policies of other countries--and it is these 
students who are outperforming our math and science students.
    How do we solve this problem? The idealistic nature of many has 
sparked volunteerism and short-term programs to make an immediate, 
although temporary, impact. We need a long-term, sustainable solution 
to ensure that math and science teaching jobs are attractive so that 
teachers stay in the classroom and remain involved with education. 
Currently, about one-half of new mathematics teachers leave by the end 
of five years. Obviously, paying more is necessary, but giving teachers 
more recognition and respect are equally important components. 
Moreover, American schools and policymakers must do better. There is a 
preponderance of top down solutions and slogans, mostly related to 
testing data, standards and curriculum that does not get to the heart 
of the problem. We need to go directly to the center of the issue-
ensuring that we have inspiring and knowledgeable teachers in the 
classroom.
    Math can be difficult to understand and explain. Excellent teachers 
know and love their subjects. Outstanding teachers will not merely 
follow the material in a lesson plan or teach to the test, but instead 
will sufficiently and intelligently answer questions that 
enthusiastically encourage and engage students to seek further inquiry. 
This is not a question of the number of teachers. This is about 
knowledgeable teachers who are impacting the lives of countless 
students every day. Students today need the necessary mathematical and 
scientific tools to learn and think critically and analytically in 
order to be adequately equipped for the jobs of the future.
    Having briefly touched on the roots and barriers of our national 
STEM educational crisis, I would like to focus on our approach to the 
solution and tell you about Math for America. We sponsor three 
Fellowship programs make teaching jobs more attractive through 
financial rewards, recognition and respect.
    Our endeavor in starting Math for America in New York City in 2004 
was to create a pilot program for a national model. Mf A is a private 
nonprofit organization with a mission to improve math education in US 
public secondary schools by recruiting, training and retaining 
outstanding mathematics teachers.
    Along with New York City, we have sites in Boston, Los Angeles, 
Berkeley, San Diego and Washington, DC. We are currently negotiating 
with several other cities and states interested in joining our network. 
We are ready to grow and provide substantial matching funds for those 
efforts while looking at existing state and Federal programs to best 
leverage our impact. For example, Mf A sites in Boston, Washington, DC, 
Los Angeles and San Diego were recently awarded National Science 
Foundation Robert Noyce Teaching Fellowships and Master Teaching 
Fellowships grants. That NSF support, leveraged by the Mf A commitment, 
is expected to have a significant impact on their work.
    Mf A offers Fellowships for both new and experienced teachers, 
including the Mf A Fellowship which aims to increase the number of 
mathematically talented individuals entering the teaching profession, 
as well as the Mf A Early Career Fellowship and Mf A Master Teacher 
Fellowship, which support outstanding mathematics teachers already in 
the classroom. To date, we have more than 300 teachers in the program 
with about 100 additional Fellows and Master Teachers poised to enter 
the program this spring.
    The Mf A Fellowship is a five-year program where recent college 
graduates and mid-career professionals make a commitment to teach math 
in public secondary schools. Mf A Fellows are mathematically 
sophisticated individuals who are new to teaching and use their talents 
to make a difference in students' lives. The program includes one year 
earning a master's degree in education and four years of teaching math 
in public secondary schools. The Mf A Fellowship provides a full 
tuition scholarship, annual stipends of up to $100,000 over five years, 
in addition to a full time teacher's salary, and mentoring and 
professional development services. During the fifth year, Fellows may 
apply to become Master Teachers.
    The Mf A Early Career Fellowship, a pilot program, provides 
professional support and growth opportunities to current new teachers 
of secondary mathematics in a public school or recent graduates of 
education training programs who are certified to teach and have secured 
an eligible job. The four-year program includes annual stipends of up 
to $70,000 over four years, camaraderie with a cohort of outstanding 
secondary math teachers, mentoring and professional development 
support.
    The Mf A Master Teacher Fellowship rewards exceptional public 
secondary school math teachers with a four-year Fellowship in New York 
City. The Master Teacher Fellowship includes annual stipends of up to 
$60,000 over four years, professional development and leadership 
opportunities and support for mathematical and educational interests.
    Mf A staff, along with part-time New Teacher Advisors and Master 
Teachers, provide Fellows with regular professional and instructional 
support and guidance. Mf A also hosts a variety of workshops and 
seminars to keep Fellows connected to one another and learn new math 
and education skills and strategies. Selected meetings are open to the 
public and Fellows are encouraged to bring colleagues and other 
department members. In addition, Mf A urges Fellows and Master Teachers 
to create professional development sessions and attend and present at 
local and national conferences.
    The Mf A Fellowships and Mf A Master Teacher Fellowship are based 
on three key principles:

        <bullet>  To teach math effectively, one needs a strong 
        knowledge of mathematics, solid pedagogical skills and a desire 
        and ability to interact with young people.

        <bullet>  Generous incentives make it possible to recruit 
        highly qualified individuals into teaching and to retain 
        outstanding mathematics teachers.

        <bullet>  By providing strong support services, including 
        continuing education, mentoring and professional development, 
        it is possible to inspire a commitment to a long-term career as 
        a mathematics teacher.

    We have established extensive partnerships with universities and 
school districts at each program site to provide our Fellows with the 
best resources and education and continuously improve overall secondary 
mathematics education in these public schools. In addition, working 
with other math education stakeholders, we created a Professional 
Development and Outreach (PDO) group with the Park City Math Institute 
to support mathematics teachers in the five boroughs through workshops 
and outreach activities. Mf A Los Angeles has also worked with Harvey 
Mudd College and the Park City Math Institute to establish the Harvey 
Mudd Professional Development and Outreach Group for mathematics 
teachers in the Los Angeles area. It's this kind of collective effort 
that builds a sense of purpose, self respect and recognition that their 
work, as teachers, is meaningful and important.
    We have found that this injection of teachers--who are highly 
knowledgeable and passionate about math--into public schools directly 
helps students, while also encouraging and inspiring other teachers, 
schools, districts and parents. And, by creating a community of like-
minded mathematicians in the classroom, we have watched the important 
role of esprit de corps in fostering our mission and impact.
    When Sputnik went up fifty years ago it shook our country because 
we were underprepared in Defense. Quick and effective congressional 
action, including the National Defense Act, which helped me get my 
Ph.D. in 1961, remedied that by creating an outstanding pool of 
scientists and mathematicians. Today, we are facing a vastly different 
and more difficult challenge with both our economic and national 
security threatened and our role as a leader of innovation and 
ingenuity considerably lessened. We must find a way to meet that 
challenge, and the ideas that underlay Math for America suggest a way 
to do this.
    Mf A attributes much of its success to its commitment to providing 
professional enrichment opportunities, developing leaders and creating 
a strong community of mathematics teachers. I believe this can be done 
on a national level through the creation of a Math Science Teaching 
Corps (MSTC). In 2006, this notion was introduced by my friend, 
Congressman Jim Saxton and perhaps it's time to revisit that effort. 
The Robert Noyce Teacher Fellows and Master Teaching Fellows Programs, 
which encourage talented science, technology, engineering, and 
mathematics majors and professionals to become K-12 mathematics and 
science teachers, could become a pilot program for such a national 
corps.
    Thank you again for the opportunity to testify before the Committee 
and for your work over the past two years under the leadership of 
Chairman Gordon. I intend to continue my modest contribution to make Mf 
A successful in New York City and around the country by working with 
the NSF and other entities. We greatly appreciate your efforts as you 
go through the reauthorization process of the America COMPETES Act. I 
believe private sector support combined with a robust Federal 
Government commitment will achieve results.

                     Biography for James H. Simons
    Dr. James H. Simons is President of Euclidean Capital, a family 
office, and Board Chair of Renaissance Technologies LLC, a highly 
quantitative investment firm, from which he retired in 2009 after many 
years as CEO. Previously he was chairman of the Mathematics Department 
at the State University of New York at Stony Brook. Earlier in his 
career he was a cryptanalyst at the Institute of Defense Analyses in 
Princeton, and taught mathematics at the Massachusetts Institute of 
Technology and Harvard University.
    Dr. Simons holds a B.S. in mathematics from the Massachusetts 
Institute of Technology and a Ph.D. in mathematics from the University 
of California at Berkeley. His scientific research was in the area of 
geometry and topology. He received the American Mathematical Society 
Veblen Prize in Geometry in 1975 for work that involved a recasting of 
the subject of area minimizing multidimensional surfaces. A consequence 
was the settling of two classical questions, the Bernstein Conjecture 
and the Plateau Problem. Dr. Simons' most influential research involved 
the discovery and application of certain geometric measurements, now 
called the Chern-Simons Invariants, which have wide use, particularly 
in theoretical physics.
    Dr. Simons is the founder and Chairman of Math for America, a 
nonprofit organization with a mission to significantly improve math 
education in our nation's public schools. He serves as Trustee of 
Brookhaven National Laboratory, the Institute for Advanced Study, 
Rockefeller University, and the Mathematical Sciences Research 
Institute in Berkeley. He is also a member of the Board of the MIT 
Corporation and Chair Emeritus of the Stony Brook Foundation. Together 
with his wife, Marilyn, Dr. Simons manages the Simons Foundation, a 
charitable organization primarily devoted to scientific research.
    The Foundation's philanthropic activities include, in addition to 
Math for America, a major research initiative on the causes of autism, 
and the recent establishment of an institute for research in 
mathematics and theoretical physics. The Foundation is particularly 
interested in the growing interface between the physical and life 
sciences and has established and endowed several such research programs 
at universities and institutions both in the U.S. and abroad. Dr. and 
Mrs. Simons have also privately launched and funded a country wide 
health care and training program in Nepal.

    Chairman Gordon. Thank you, Dr. Simons. Mr. Hall leaned 
over to me and said, ``That guy makes a lot of sense.''
    Ms. Futter, you are recognized.

 STATEMENTS OF MS. ELLEN FUTTER, PRESIDENT, AMERICAN MUSEUM OF 
                        NATURAL HISTORY

    Ms. Futter. Thank you very much. Chairman Gordon, Ranking 
Member Hall and distinguished Members of the Committee, it is 
an honor to have the opportunity to testify before you today.
    I would like today to offer a way to support schools in 
improving science education, and that is the unique and 
powerful role that informal science education institutions like 
the American Museum of Natural History, that we are delighted 
your daughter has enjoyed, as well as other science centers, 
zoos, botanical gardens, aquaria and other science-based 
cultural institutions can play and increasingly are playing in 
improving the teaching and learning of science and enhancing 
science literacy more broadly among the general public 
including particularly tomorrow's workforce.
    Schools will of course remain at the center of efforts to 
reform science education but they cannot and need not shoulder 
this responsibility alone. Institutions like the American 
Museum of Natural History, which are grounded in authentic 
science and have collections of real specimens and artifacts as 
well as working scientists and educational expertise, and are 
today building innovative partnerships with schools that seek 
to empower teachers and improve student achievement. These 
efforts are transforming the definition of the schoolhouse by 
providing access to educational resources beyond the school 
walls, and in the process are redefining science education 
itself.
    Museums and similar institutions have always been places of 
inspiration, and inspiration and awakening curiosity have long 
been recognized as the gateway to learning. Building on that 
awakening, however, is absolutely essential to achieving 
enduring improvement in science education, and institutions 
like ours have a strong role to play in this respect. We are 
pleased to join others, including the Carnegie-IAS Commission 
and Race to the Top, in pointing to museums and like 
institutions as catalysts for both STEM education reform and 
cross-sector partnerships.
    One such partnership is Urban Advantage. Based on the idea 
that urban settings have a wealth of educational resources 
embedded in the assets of community science-based institutions, 
the American Museum of Natural History developed and now leads 
a pioneering eight-institution collaboration with the New York 
Hall of Science, New York Botanical Garden, Brooklyn Botanic 
Garden, the Queens Botanical Garden, the Bronx Zoo, the Staten 
Island Zoo, the New York Aquarium together with Joel Klein and 
the Department of Education, with support from Council Speaker 
Christine Quinn. Urban Advantage was designed to assist 8th 
graders in completing their Exit Project, which is a city-
mandated science investigation. The program provides the 
following vital components: professional development for 
teachers, classroom resources and equipment for schools, access 
to partner institutions' expertise and resources, family 
engagement through educational outreach, capacity building with 
lead teachers, leadership and demonstration schools, national 
and local science standards built into the program design, 
ongoing formal assessment of formal program goals, student 
learning and systems of delivery, and, to serve New York City's 
diverse student population, the program combines rigor with 
equity and access. In its sixth year, Urban Advantage currently 
supports over 300 teachers in more than 150 middle schools. 
That is over one-third of New York City middle schools and it 
serves more than 37,000 students.
    Two other programs are priorities of the Museum's STEM 
education strategy. First, to echo Mr. Simons' emphasis 
appropriately on teachers, professional development of teachers 
through partnerships with institutions of higher learning. 
Today the Museum educates more than 3,300 pre- and in-service 
teachers and those seeking certification on site and online 
annually. Second, what we call the science generation pipeline, 
a continuum of out-of-school science learning opportunities 
that serve audiences ranging from children as young as two and 
their parents to high school students who are matched with 
science mentors and conduct research. And our mission in this 
regard is not unique to us. There are many other exemplary 
programs across the country: Washington State's LASER program 
led by the Pacific Science Center, the Arkansas Discovery 
Network, the Daily Planet program of the North Carolina Museum 
of Natural Sciences.
    With the Federal Government's vital assistance, these 
programs can be multiplied to achieve broad-scale change 
through the following actions. First, grant competition should 
be designed to foster cross-cultural partnerships including 
with informal education institutions. Second, the America 
COMPETES Act should explicitly refer to the role of informal 
institutions, including by providing access to funding, and of 
course, Congress should fully fund the Act. Third, we support 
the development of common standards. Fourth, these standards 
should be matched with state and local assessments and also 
should be internationally benchmarked.
    In sum, communities across our country have access to an 
array of science-based institutions, great institutions, some 
large, some small, some local, some regional, but nearly all 
housing phenomenal resources and expertise to help schools 
improve science education while also promoting and advancing 
instincts for inquiry and discovery that are precisely what 
drive innovation and will fuel our country's global 
competitiveness. We as a field stand ready to play a larger, 
more formal, structural and leadership role.
    I thank you for the opportunity and look forward to your 
questions.
    [The prepared statement of Ms. Futter follows:]
                 Prepared Statement of Ellen V. Futter
    Chairman Gordon, Ranking Member Hall, and distinguished members of 
the Committee, my name is Ellen Futter and, as President of the 
American Museum of Natural History, it is an honor and a pleasure to 
have the opportunity to testify before you on the topic of ``Reform in 
K-12 STEM Education.''
    As you are well aware, the United States has a history of 
unparalleled innovation in science, technology, engineering, and 
mathematics that we are in danger of squandering. In these remarks, I 
will offer a way to support schools in improving science education, and 
to expand their access to vital resources for doing so. Specifically, I 
would like to describe the unique and powerful role that so-called 
informal science education (ISE) institutions like the American Museum 
of Natural History--other natural history museums, science centers, 
zoos, botanical gardens, aquaria, and other science-based cultural 
institutions--can play and increasingly are playing in improving the 
teaching and learning of science and science literacy more broadly 
among the general public, including tomorrow's workforce. These 
institutions have a wealth of resources and, as a field and sector, we 
stand ready to bring those resources to bear on the science education 
crisis in new ways, joining forces with formal education institutions 
and other key players to reform STEM education.
    The need for systemic, long-term change in K-12 education is well 
recognized and has been underscored by several major national 
commissions in the past few years, including: the National Academies' 
``Rising above the Gathering Storm''; the National Science Board's ``A 
National Action Plan''; the National Governors' Association report 
``Innovation America''; and the Carnegie-IAS Commission on Mathematics 
and Science Education's ``Opportunity Equation.''

American Museum of Natural History

    Founded in 1869 as an institution of scientific research and 
education, and chartered as an educational institution by the New York 
State Board of Regents, the American Museum of Natural History, located 
in New York City, is today one of the world's foremost centers of 
research and education in the natural sciences, the physical sciences, 
and anthropology. The Museum's mission is: ``to discover, interpret, 
and disseminate--through scientific research and education--knowledge 
about human cultures, the natural world, and the universe.'' The Museum 
welcomes approximately four million visitors annually onsite and was 
voted the third most popular family destination in the nation, and the 
first non-commercial enterprise on the list, in the Zagat Family Travel 
Guide.
    The Museum is home to one of the world's most important natural 
history collections, including traditional collections of more than 32 
million specimens and artifacts and new forms of collecting such as 
frozen tissue and scientific data. Together they constitute an 
invaluable and irreplaceable record of life on Earth. The Museum has a 
scientific staff of more than 200, led by over 40 curators (tenure or 
tenure-track positions). In 2006, the Museum was authorized by the New 
York State Department of Education as the first American museum 
authorized to grant the Ph.D. degree. With this, the Museum launched 
the Richard Gilder Graduate School, which embraces both a new doctoral 
program in comparative biology and maintains the Museum's longstanding 
graduate training partnerships with such universities as Columbia, 
Cornell, New York University, and City University of New York. The 
Ph.D. program in comparative biology has now admitted two classes of 
students and is fully accredited.
    The Museum's robust scientific enterprise, with a century-plus 
record of leadership in field science, theoretical science, and the 
professional training of scientists, provides the foundation for a wide 
range of public outreach and educational initiatives including 
professional development for teachers, permanent halls, temporary 
exhibitions and space shows (which travel both nationally and 
internationally), public programs, major conferences, and special 
seminars and symposia.
    The scientific enterprise provides the foundation for the Museum's 
extensive educational program that serves learners of all ages, 
backgrounds, and levels of preparedness--both onsite and online. Pre-
school children and their parents and caregivers are introduced to 
scientific investigations through collaborations with community-based 
organizations and through programs onsite in the Museum's Discovery 
Room. The Museum has extensive partnerships with the New York City 
school system and schools nationwide. It is the most-visited field trip 
destination for New York City public schoolchildren, who visit the 
Museum free of charge. Each year, approximately 400,000 children visit 
in organized class or camp groups. Visiting groups and their teachers 
are supported with a wide range of pre- and post-visit materials. 
Middle and high school students participate in an array of programs 
after school, on weekends, and during the summer, including an 
intensive program of independent research for high school students 
working under the supervision of Museum scientists.
    The Museum is also a leader in professional development of primary 
and secondary school teachers, having made the strategic decision to 
focus on teachers as a way to ameliorate the crisis in preparing, 
supporting, and retaining science teachers nationwide. The Museum 
provides institutes, courses, and programs--both onsite and online--to 
more than 3,300 teachers a year. All programs are developed by 
scientist-educator teams and many offer graduate credit. I will 
describe several of these initiatives shortly.
    At the American Museum of Natural History, science education is 
distinguished by a focus on authentic science experiences that expose 
teachers and students to the scientific process, including inquiry, 
investigation, evidence and data collection, and analysis, while also 
elucidating key scientific concepts. The overarching aim is to enhance 
science literacy for all people, especially children, to inspire full 
citizenship and informed participation in life; for families, who are 
key to children's college and career choices; and for those children 
who will become tomorrow's scientists or work in the STEM fields.

Informal Science Education Institutions

    Schools will of course remain at the center of all efforts to 
reform K-12 STEM education, but they cannot and need not shoulder this 
responsibility alone. Indeed, in the face of this seemingly intractable 
STEM education problem, we must think more broadly about what 
constitutes an educational setting and how best to enhance the 
scientific resources currently available to schools. Each science-based 
institution has a unique and valuable combination of assets and 
resources to offer. Institutions like the American Museum of Natural 
History are grounded in authentic science, and provide access to 
collections of real specimens and artifacts--``the power of reality,'' 
ranging from the 65-million-year-old T. rex to a 34-ton meteorite to a 
towering totem pole--along with working scientists, laboratories and 
equipment, and extensive educational expertise, including many decades 
of experience interpreting and presenting complex topics in science for 
a broad public in ways that inspire, engage, and educate.
    Science-based cultural institutions of all kinds are building 
innovative partnerships with schools, governments, corporations, 
foundations, and other entities that seek not only to educate teachers 
and improve educational outcomes for students, but, equally important, 
to create sustained learning opportunities that span not only a child's 
week and year, but his or her entire life. These efforts are 
transforming our definition of the schoolhouse by providing access to 
educational resources beyond the school walls--from museums and similar 
institutions--and are also, in the process, redefining science 
education itself.
    Museums and similar institutions have always been places of 
inspiration that enjoy a special connection with the public, one that 
is marked by trust, familiarity, and enjoyment. Inspiration and 
awakening curiosity have long been recognized as the first, essential 
stop, or gateway, to learning. Building on that awakening, however, is 
equally critical to enduring improvement in science education, and 
institutions like the American Museum of Natural History have a strong 
role to play in that regard as well. We join the chorus of voices, 
including the Carnegie-IAS Commission on Mathematics and Science 
Education, on which I was privileged to serve, and the Race to the Top 
initiative, in pointing to museums and other science-based institutions 
not only as powerful catalysts of STEM education reform but as uniquely 
qualified to forge and sustain cross-sector partnerships.
    There is a growing understanding of the key role informal science 
education institutions can play in addressing the crisis in STEM 
education. ``Opportunity Equation,'' the 2009 report of the Carnegie-
IAS Commission on Mathematics and Science Education explicitly points 
to ISE institutions: ``Programs [at a growing universe of museums] are 
giving hundreds of thousands of students and teachers access to museum 
collections and staff expertise--along with powerful insights into what 
people find most fascinating about science.'' \1\ The National Research 
Council's 2009 ``Learning Science in Informal Environments: People, 
Places, and Pursuits'' recognizes the important learning that occurs in 
out-of-school settings and articulates approaches to the complexities 
involved in assessing outcomes.\2\
---------------------------------------------------------------------------
    \1\ Carnegie-IAS Commission on Mathematics and Science Education. 
The Opportunity Equation: Transforming Mathematics and Science 
Education for Citizenship and the Global Economy. New York, NY: The 
Carnegie Corporation of New York, 2009.
    \2\ Bell, Philip, Bruce Lewenstein, Andrew W. Shouse, and Michael 
A. Feder (eds). Learning Science in Informal Environments: People, 
Places, and Pursuits. Washington, D.C.: The National Academies Press, 
2009.
---------------------------------------------------------------------------
    Importantly, the Federal Race to the Top initiative, funded as a 
$4.3 billion initiative in the ARRA (American Recovery and Reinvestment 
Act), explicitly recognizes the valuable role museums and similar 
institutions can play in reforming STEM education: the program provides 
for a single competitive preference priority for STEM education, and it 
specifically includes museums, calling on States not only to ``offer a 
rigorous course of study in mathematics, sciences, technology, and 
engineering'' but also to ``cooperate with industry experts, museums, 
universities, research centers, or other STEM-capable community 
partners to prepare and assist teachers in integrating STEM content 
across grades and disciplines, in promoting effective and relevant 
instruction, and in offering applied learning opportunities for 
students . . . .'' \3\ It cannot be overstated how significant and 
historic this inclusion is.
---------------------------------------------------------------------------
    \3\ ``Race to the Top Funds: Notice of Proposed Priorities.'' 
Federal Register 74:144 (29 July 2009) p. 37806.

Exemplar STEM Programs

    The community of science museums and other ISE institutions is 
deeply engaged in the national call to accelerate solutions to the 
crisis in STEM education. Many of the directions undertaken by the 
Museum and similar institutions across the Nation are built on a 
partnership model--among science-based institutions and school systems, 
local governments, institutions of higher education, and other 
entities. These institutions, with their unique resources, collections, 
working scientists, labs and equipment, and educational and 
interpretive expertise are increasingly taking the lead in building and 
managing these partnerships, and municipalities are increasingly 
looking to these institutions for educational leadership as are 
families and local communities.

Exemplar Programs at AMNH

    Following are a few examples of American Museum of Natural History-
led partnerships that are working to improve the teaching and learning 
of science, both locally in New York City and on a wider scale. All 
these partnerships are characterized by the collaboration of scientists 
and educators; the utilization of Museum resources including 
exhibitions, collections, public programs, and digital resources; and 
access to online educational resources. In addition, and importantly, 
national and local science standards, assessments, scope and sequence, 
and other forms of demonstration are built into the design so that 
these offerings directly support the work of teachers. Because New York 
City's population and student population are so diverse there is great 
emphasis on combining rigor with equity and access in these 
partnerships and programs.

Urban Advantage
    Over six years ago, the Museum began to analyze the status of 
science education in New York City's public middle schools. The middle 
school years are considered a ``sweet spot'' \4\ when children either 
develop a sustained interest in science or, too often, turn away from 
science altogether. Findings\5\ pointed to a severe shortage of 
qualified science teachers, which coincided with a new City mandate 
requiring all eighth-graders to complete a long-term scientific 
investigation known as the ``exit project'' before progressing to ninth 
grade.
---------------------------------------------------------------------------
    \4\ Carnegie Council on Adolescent Development, Task Force on the 
Education of Young Adolescents. Turning points: Preparing American 
Youth for the 21st century. Washington, D.C.: Carnegie Council on 
Adolescent Development, 1989.
    \5\ Poitier, Johanna Duncan. Progress Report on Teacher Supply and 
Demand. Report to the Higher Education Committee of the State Education 
Department. Albany, NY: University of the State of NY, 2008.
---------------------------------------------------------------------------
    These findings led to the development of Urban Advantage (UA), a 
keystone program of the Museum's Gottesman Center for Science Teaching 
and Learning. Based on the notion that urban settings often have a 
wealth of educational resources in the assets of the local science-
based cultural institutions that schools could more effectively draw 
upon, UA is a pioneering, eight-institution collaboration with the 
American Museum of Natural History as lead institution and including 
the New York Hall of Science, the New York Botanical Garden, the 
Brooklyn Botanic Garden, the Queen Botanical Garden, the Bronx Zoo, the 
Staten Island Zoo, and the New York Aquarium, together with the New 
York City Department of Education under the leadership of Chancellor 
Joel Klein, and launched with support from the New York City Council 
and Speaker Christine Quinn, along with private funders.
    UA incorporates professional development for teachers; classroom 
resources; laboratories and equipment for schools; access to the assets 
of the partner institutions for teachers, students, and families; 
educational outreach that specifically engages families; capacity 
building with lead teachers, school leadership and demonstration 
schools; and, importantly, ongoing assessment of program goals, student 
learning and systems of delivery.
    UA has increased in scope and reach each year since it was piloted 
in 2004. It began with 60 teachers and 35 schools and now, in its sixth 
year, supports over 300 teachers in more than 150 middle schools--fully 
one-third of all New York City public middle schools--and serves more 
than 37,000 New York City students.
    Museums and other similar institutions are increasingly 
incorporating assessment of the effectiveness of STEM education 
programs into the program design, and Urban Advantage places high 
priority on outcomes assessment. Preliminary evaluations support the 
initiative's primary goal of improving student understanding of 
scientific inquiry as defined in the New York State Core Curriculum. 
Sample findings include the following: 83% of UA teachers have observed 
evidence of improvement in the quality of UA students' science content 
knowledge; and 80% of UA teachers have reported increased understanding 
of the process of scientific investigations. The program is also 
fueling new levels of partnership among the collaborators and the New 
York City Department of Education in creating effective professional 
development for science teachers, and has led to increased visitation 
rates to the institutions by science classes and families.

Professional Development of Teachers
    Since the quality of a student's experience with science is largely 
determined by his or her science teacher, the professional development 
of both pre- and in-service teachers is a key priority in the Museum's 
STEM education strategy. The National Academies' ``Rising above the 
Gathering Storm'' states that ``few factors are more important than 
[high quality K-12 mathematics and science instruction] if the United 
States is to compete successfully in the 21st century.'' \6\ Science-
based institutions not only can bridge teachers to science content, 
but, more importantly, they can bridge teachers to the actual practice 
of science and to working scientists. Teachers who have practiced 
inquiry-based investigations themselves--and who understand the 
scientific method--are far more capable of and likely to foster such 
learning behavior in their students.
---------------------------------------------------------------------------
    \6\ National Academy of Sciences, The National Academy of 
Engineering, and The Institute of Medicine. Rising Above the Gathering 
Storm: Energizing and Employing America for a Brighter Economic Future. 
Washington, D.C.: The National Academy of Sciences, 2007.
---------------------------------------------------------------------------
    Partnerships at the K-12 and the university levels are essential in 
the Museum's professional development programs. The Museum currently 
serves up to 200 teachers each year through higher education 
partnerships with degree-granting programs, and more than 3,300 a year 
through various other professional development programs at the Museum 
and online. The Museum collaborates with a number of local colleges and 
universities, including Bank Street College of Education, Teachers 
College Columbia, Barnard College, and three City University of New 
York (CUNY) schools (Lehman, Brooklyn, and Hunter Colleges). These 
partnerships take various forms, including customized courses; 
supervised internships in science and museum education; thesis and 
dissertation advisement; Summer Institutes in Earth, space, and 
biological sciences; and online science courses in the biological, 
physical, and Earth sciences. These courses are co-developed with 
faculty from each institution to determine which Museum components add 
value and resources that enhance the experiences of participants.
    With support from an NSF Teacher Enhancement grant in 2004, the 
Museum developed the Teacher Renewal for Urban Science Teaching program 
(TRUST), a partnership with Lehman and Brooklyn Colleges (of CUNY), to 
establish a Museum-based component of their Master's programs in Earth 
science. NSF's initial support was critical to the full development and 
implementation of the Museum's partnerships with institutions of higher 
education; not only did it enable the program to prepare 120 new Earth 
science teachers, it also provided the necessary resources and support 
for the Museum to develop successful and sustainable program models. It 
also enabled the Museum to leverage this support to obtain foundation 
funding for a similar program for biology teachers in partnership with 
three of the CUNY colleges. This model and these partnerships have 
since become institutionalized and self-sustaining, supporting state 
certification in Earth and biological sciences. They also have spurred 
the creation of additional collaborations and partnerships with other 
area colleges and universities, including Teachers College Columbia, 
Bank Street College of Education, and New York University.
    The Museum also reaches out to teachers across the country and 
increasingly around the world through Seminars on Science, an online 
teacher education initiative. Serving more than 1,300 teachers in 2009, 
the program currently offers eleven online science courses, co-taught 
by Museum scientists and science educators, covering areas in the 
biological, Earth, and physical sciences. Several institutions across 
the country award graduate credit for these six-week courses, and four 
universities specifically include them as part of the teacher 
preparation and certification programs: Bank Street College of 
Education, CUNY School of Professional Studies, Brooklyn College, and 
Western Governors University.

The Science Generation Pipeline
    One key dimension that museums and similar institutions offer is 
the ability to provide a sustained exposure to the actual practice and 
excitement of science and discovery--revealing for children, as well as 
their teachers and families, the thrilling quest that science really 
is. To that end, the Museum has developed and launched the Science 
Generation Pipeline, a complete pre-K through graduate school continuum 
of exceptional out-of-school science-learning opportunities. The 
Pipeline offers educational programs ranging from the Science and 
Nature Program, where parents and children as young as two are exposed 
to and engage in science together, to the Science Research Mentoring 
Program, where a highly diverse cohort of high school students are 
paired with scientist mentors to conduct authentic research in museum 
laboratories and collections.

Exemplar Programs at Other ISE Institutions

    There are many other examples of effective and innovative model 
partnership programs at institutions and communities across the 
country.
    In Washington state, for example, the Pacific Science Center is the 
lead institution for the Washington LASER (Leadership and Assistance 
for Science Education Reform) program. The program, which aims to 
improve science teaching and learning through teacher professional 
development, curricular and material support, and leadership training, 
was created in 1999 as an NSF-funded dissemination and implementation 
project.
    The Arkansas Discovery Network was created in 2003 to make hands-
on, interactive museum experiences more accessible to schoolchildren 
and their families throughout Arkansas. The Discovery Network provides 
geographic coverage across the state, is composed mostly of ISE 
institutions, and supports the state's STEM agenda.
    As of January 2009, the North Carolina Museum of Natural Sciences 
provided all of the state's schools with access to high definition 
programming of breaking news in science and the environment through a 
program called the Daily Planet.

The Role of the Federal Government

    With all these ``islands of innovation'' \7\ throughout communities 
across the country, how can these model programs be transformed into 
catalysts for broad-scale change? And what role can the Federal 
Government play in supporting the role of ISE institutions and 
fostering effective partnerships that integrate formal and informal 
educational institutions?
---------------------------------------------------------------------------
    \7\ Carnegie-IAS Commission. Opportunity Equation. 2009.
---------------------------------------------------------------------------
    I should first stress that the American Museum of Natural History 
and the informal science education community have enjoyed significant 
and important support from NSF, NASA, NOAA, and NIH for educational 
initiatives, and we are most grateful for it.
    Beyond that, however, grant competitions should be designed to 
foster K-12 STEM partnerships such as those described here among 
formal, informal, and private entities. Moreover, the value of learning 
in out-of-school settings--and the institutions that provide those 
opportunities--must be recognized and should be represented in 
discussion and policy development regarding STEM education, as you have 
done here today, and ISE institutions also must be made eligible for 
funding in programs that relate to these discussions.
    The fact that the Race to the Top Program specifically encourages 
states to look to museums and other community partners in their STEM 
reform efforts is an important milestone, as is the STEM education work 
of this Committee. However, there have been several very alarming 
efforts to exclude museums and other informal institutions from 
participating at all. While museums can participate in American 
Recovery and Reinvestment Act programs, zoos and aquaria have been 
excluded; and there have been efforts to impose similar restrictions in 
other legislation.
    Concerning reauthorization of America Competes Act that this 
hearing is focused on, the Act currently makes no reference to informal 
education. For the reasons stated, it is imperative that the Act 
recognize the role of informal institutions and refer to them 
explicitly, including by providing access to funding. And it is 
essential that Congress fully fund the Act.
    In addition, as recommended by the Carnegie-IAS Commission, common 
math and science standards that are ``fewer clearer and higher'' and 
susceptible to assessment should be developed. Such standards should be 
matched with state and local assessments that tie to authentic science 
teaching and learning. And such state accountability assessments should 
be internationally benchmarked to assessments such as TIMSS (Trends in 
International Mathematics and Science Study) and PISA (Programme for 
International Student Assessment), and to the Nation's Report Card, the 
National Assessment of Educational Progress.
    As an overarching point, efforts to reform STEM education suffer 
from lack of coordination among the Federal agencies. In this regard we 
support efforts to provide for government-wide coordination, as 
embodied in the bill H.R. 1709, STEM Education Co-ordination Act of 
2009.

Experience with NSF and other Federal Agencies

    The National Science Foundation's role is unique among the Federal 
agencies--in science education, its scope is comprehensive, embracing 
K-12 through graduate and lifelong learning, in both formal and 
informal settings. NASA, NOAA, and other science agencies, in turn, 
each contribute their own area of science and are critical to the 
Federal Government's overall STEM education capacity.
    The Museum has been tremendously grateful for the support of NSF, 
NASA, NOAA, and NIH, which has been essential to some of our key 
partnership programs, as mentioned above.
    Also with NSF support, we are currently able to carry out, with our 
Urban Advantage partners and Michigan State University, education 
research that will advance knowledge and practice of middle school 
science education, including building a greater understanding of the 
role of ISE institutions, and the role of inquiry-based education in 
supporting student learning and science literacy for teachers, 
administrators, and families.
    Similarly, with support from the NSF ITEST Program and NASA's 
Competitive Program for Science Museums and Planetariums, we have been 
able to launch and assess the innovative Student Research Mentoring 
Program, described above. NASA has also generously supported our 
digital space shows which engage millions of viewers worldwide, while 
NOAA's support has enabled us to improve public understanding of 
climate change.
    I referred earlier to the importance of ISE institutions' 
interpretive and educational expertise and I return to this point here 
to stress that these institutions can play a powerful role in 
translating and interpreting current science and research for the 
public. NSF (and other Federal agencies) should fully tap this enormous 
and sophisticated outreach capacity.
    In conclusion, I am gratified by the increasing recognition of the 
unique and powerful role that museums and similar institutions can play 
in reforming K-12 science education. Communities throughout the country 
have an array of science-based institutions--some large, some small, 
but nearly all housing resources and expertise that can enable schools 
to improve K-12 science education. As a field, institutions like ours 
are prepared and eager to take a larger, more formal, structural, and 
leadership role.
    What institutions like the American Museum of Natural History have 
long done so well, and which is in many ways the hardest part to get 
right, is awaken wonder and curiosity. Today, and this is essential, 
this is amplified and extended by our demonstrated ability to create 
opportunities for sustained exposure to exploration and inquiry. We do 
so by sharing the power of discovery and real science with teachers, 
students, and families, providing a platform for sustained inquiry and 
learning that, in turn, enables schools to be vastly more effective. By 
increasingly working in cross-sector partnerships, the full value and 
promise of this approach can be realized and brought to scale. And, 
importantly, the instinct for inquiry and discovery that this approach 
nurtures is also precisely what drives innovation and will fuel our 
country's global competitiveness.
    Thank you, Chairman Gordon, Ranking Member Hall, and all the 
Committee members for your time and for the opportunity to speak before 
you today. I look forward to answering your questions.

References

Bell, Philip, Bruce Lewenstein, Andrew W. Shouse, and Michael A. Feder 
        (eds). Learning Science in Informal Environments: People, 
        Places, and Pursuits. Washington, D.C.: The National Academies 
        Press, 2009.

Carnegie Council on Adolescent Development, Task Force on the Education 
        of Young Adolescents. Turning Points: Preparing American Youth 
        for the 21st century. Washington, D.C.: Carnegie Council on 
        Adolescent Development, 1989.

Carnegie-IAS Commission on Mathematics and Science Education. The 
        Opportunity Equation: Transforming Mathematics and Science 
        Education for Citizenship and the Global Economy. New York, NY: 
        The Carnegie Corporation of New York, 2009.

Eccles, J. S., C. Midgley, and T. F. Adler. Grade-Related Changes in 
        the School Environment: Effects on Achievement Motivation. In 
        J. G. Nicholls (Ed.), The Development of Achievement Motivation 
        (pp. 283-332). Greenwich, CT: JAI Press, 1984.

National Academy of Sciences, The National Academy of Engineering, and 
        The Institute of Medicine. Rising Above the Gathering Storm: 
        Energizing and Employing America for a Brighter Economic 
        Future. Washington, D.C.: The National Academy of Sciences, 
        2007.

National Governors Association. Innovation America: A Final Report. 
        Washington, D.C.: National Governors Association, 2007.

National Science Board. National Action Plan for Addressing the 
        Critical Needs of the U.S. Science, Technology, Engineering, 
        and Mathematics Education System. Arlington, VA: National 
        Science Foundation, 2007.

Race to the Top Funds: Notice of Proposed Priorities. Federal Register 
        74:144 (29 July 2009) p.37806.

Poitier, Johanna Duncan. Progress Report on Teacher Supply and Demand. 
        Report to the Higher Education Committee of the State Education 
        Department. Albany, NY: University of the State of New York, 
        2008.

                     Biography for Ellen V. Futter
    Ellen V. Futter has been President of the American Museum of 
Natural History since 1993. Before joining the Museum she served as 
President of Barnard College for thirteen years, where, at the time of 
her inauguration, she was the youngest person to assume the presidency 
of a major American college. Committed to public service, Ms. Futter 
serves on the boards of several non-profit and for-profit 
organizations. She is a fellow of the American Academy of Arts and 
Sciences and a member of the Council on Foreign Relations and the 
American Philosophical Society. She has received numerous honorary 
degrees and awards. Ms. Futter graduated Phi Beta Kappa, magna cum 
laude, from Barnard in 1971 and earned her J.D. degree from Columbia 
Law School in 1974. Her career began at Milbank, Tweed, Hadley & McCloy 
where she practiced corporate law.

    Chairman Gordon. Thank you.
    President Gee, you are recognized.

 STATEMENTS OF DR. GORDON GEE, PRESIDENT, OHIO STATE UNIVERSITY

    Dr. Gee. Thank you very much, Mr. Chairman. Thanks for the 
great work you did for and in Tennessee and have done for the 
Nation. I just want it to be on the record of acknowledging 
your leadership. It really has been extraordinary and we 
appreciate it, all of us who have been part of this science 
community for a long time, and I want you to know how much I 
personally appreciate your leadership.
    Ranking Member Hall, we don't know each other but I 
appreciate your comments also, and of course, it is great to 
have Representative Wilson on this panel and a graduate of the 
Ohio State University, Representative Fudge, we are honored for 
that.
    I am going to be very, very quick because we are doing a 
tag team here, and with my good friend, my colleague, my 
neighbor at Battelle, Dr. Wadsworth. I must say that--and you 
have my written comments. I must say that I know that there are 
a number of conversations going on in the halls of Congress 
today. None are more important than this. I will go on the 
record saying that, and the reason is, is this is about our 
children but it is also about the competitive nature of our 
Nation. It is also about the reinvention of America. It is 
fundamental in terms of what we are talking about as we move 
forward in this Nation, that we finally acknowledge the fact 
that we are moving from a hardware to a thoughtware economy, 
that if we are going to compete in the world as a Nation, we 
are going to have to compete based upon your ability to 
outthink and outperform, not simply to outmuscle. And in order 
to do that, that means we are now going to have to turn to the 
fundamental nature of our educational system and we are going 
to have to become much more competitive in that regard. You 
have heard from my colleagues the challenges we face and the 
opportunities, but we now need to turn those opportunities into 
realities, and I think that that is what all of us are 
committed to.
    I am speaking today on behalf of 3,600 colleges and 
universities in this country. We have the premier system of 
higher education in the world. We are also challenged in that 
higher education system because we need to rethink about how we 
do our business, and in so doing, we need to work more closely 
and in collaboration with a number of our friends around the 
larger community. It used to be that it was publish or perish. 
Now I believe it is partner or perish. And I want to underscore 
that again. We as a higher education community will not 
succeed, we will not be able to compete in the world unless we 
now partner with our nonprofits, with our businesses, with 
industry, with government, state, local, certainly with Federal 
Government. So this notion of a new rounded approach to the 
world is extremely important and it is now our time.
    And so as we move from this knowledge economy built on 
innovation and ingenuity, that is the challenge, and in order 
to do that, we have to start with the building blocks and that 
is with our educational system, that is with our K-12 and pre-
K-12 system and that is obviously with our university system. 
So we are as a university community very dedicated to STEM 
efforts.
    In that regard, Ohio State has taken a leadership role and 
we are very grateful for that. As many of you know, and it has 
been noted by Representative Wilson, I have the most unstable 
employment pattern in America. I do, but nonetheless, my 
involvement in universities has taught me as I moved around the 
country that universities must take a much stronger leadership 
role in terms of the kinds of issues we are talking about today 
and we must do it in partnership with a number of people. And 
we are doing so. The Association of Public and Land-grant 
Universities has just made a commitment. They are going to 
prepare 7,500 teachers in STEM education every year and we are 
going to meet or exceed that goal, and we promise that that 
will not be a high water mark, that will be at the low end of 
what we are going to try to do.
    In addition to that, what we have done at Ohio State is, we 
have been very privileged to have the most comprehensive 
effort, I think in the country, in terms of a partnership 
between ourselves and the leading private science organizations 
in this country in its research effort, and that is Battelle 
Memorial Institute, and we have created the Metro Early College 
High School, which has been designated by a number of people as 
the finest STEM high school in this Nation and it stands on our 
campus and next door to our colleagues at Battelle. And what it 
is, it is a partnership between the university, Battelle, the 
educational council, all of our community schools, and its 
purpose is a very simple one and that is to develop these 
millennial minds to lead a new era. We will have our first 
graduating class in June, and of those graduates, 100 percent 
have been accepted to college, nearly, of course, half of them 
to Ohio State. I am grateful for that. These are average 
students. And by the way, I want to say this. This is what is 
important. It is not about geeks--I can use that word because I 
look like one--but it is about individuals and students who 
have average ability but who will be able to achieve great 
things, and so these average students come from 16 school 
districts in the 9th and 10th grades. They focus on a core 
curriculum in school. In the 11th and 12th grades, they go 
outside the school walls for internships. They spend time on 
the Ohio State campus. And by the way, at the end of the fall 
quarter those who have been taking classes at Ohio State have 
about a 3.4 grade point average. Now, either our other students 
are not doing very well or these are really--this is an 
incredible teaching mechanism, but surely that shows the nature 
of what we are doing, and of course, what it is about is 
teaching teachers how to teach others and then go into the 
public schools. Dr. Wadsworth will discuss Metro's lessons 
learned.
    I will just make a couple quick points, Mr. Chairman. I am 
over my time. First of all, STEM education cannot be truncated. 
All too often in this country--and as we all know, we thought 
about the world in quarters. We thought about it as pre-K and 
then we thought about K-12 and then higher education and then 
go out and get a real job. It is now K through life and 
particularly, it is very important we understand it is P 
through 20 in this STEM education business, and with my 
partners here we have to make certain it is preschool and we 
start this issue and we make it a compelling and innovative 
issue all through this period of time, this 20-year approach we 
have.
    Secondly, we have to support early STEM schools. This is 
what America COMPETES is about. We have to support early STEM 
schools who have proven records and who can set high standards. 
And finally, we have to make this. This is a three-year 
investment that has been made in America COMPETES. I urge this 
Congress to make a long-term strategic investment in the future 
of America through this effort.
    So I urge you to be bold and to seek first-order change, 
Mr. Chairman. That is my report.
    [The prepared statement of Dr. Gee follows:]
                  Prepared Statement of E. Gordon Gee
    Chairman Gordon, Ranking Member Hall, Ohio Delegation Members 
Wilson and Fudge, and other distinguished Members of the Committee: 
Thank you for the opportunity to testify today on innovative efforts to 
reform K-12 science, technology, engineering, and mathematics (STEM) 
education. I appear before you not as a scientist or as an elementary 
or secondary school teacher, but as the president of one of the most 
comprehensive research universities in the world. Established in 1870, 
The Ohio State University is the flagship, land-grant institution of 
Ohio. The university is home to more than 63,000 students and 40,000 
faculty and staff. We have 175 undergraduate majors, 133 masters 
programs, 99 doctoral programs, and seven professional schools, which 
offer roughly 12,000 courses each year.
    When Thomas Jefferson was designing the University of Virginia, he 
established several ``design principles'' to guide the construction of 
one of the first public universities in the United States. Two of these 
principles are particularly relevant for STEM education in the 21st 
century. The first principle deals with the economic value of a well-
trained mind. It states that a proper education must ``give to every 
citizen the information he needs for the transaction of his own 
business.'' The second highlights the fundamental role science and math 
play in educational, economic and civic development. It states that 
students must be enlightened ``with mathematical and physical sciences, 
which advance the arts and administer to the health, the subsistence 
and the comforts of human life.'' As a land-grant institution, Ohio 
State embraces those ideals and combines them with a founding purpose 
to expand public education more broadly and to assure that education 
directly improves lives and enriches communities. Such is the basis for 
our approach to STEM education and economic development. STEM-driven 
knowledge, innovation and talent are integral to how we confront the 
grand challenges faced in energy, environment, health, food, water, 
poverty and security.
    This committee is well aware of the challenges facing STEM 
education in the United States. Countless reports have identified the 
problems and many have offered solutions. I am here today to report 
that institutions of higher education understand that we must play a 
vital role in solving the grand challenge of improving the STEM 
pipeline. Ohio State, like many educational institutions, is 
reinventing itself, and a comprehensive P-20 STEM education approach is 
a vital part of our strategy. We must seize this time of disquiet as an 
opportunity to create a new American educational ecosystem that 
connects and develops talented minds in new and more powerful ways with 
increased efficiencies and shared responsibilities. Significant change 
in the quality and reach of STEM education requires our unrelenting 
pursuit of deeper partnerships across the educational spectrum, with 
business and industry, government, parents and extended families, and 
our communities. We must work together to foster stronger early-
learning skills for preschoolers and to encourage all high school 
students to be STEM literate, with greater numbers of them ready to 
pursue advanced STEM studies in college. To do so, we must re-think our 
priorities and re-order our time. We must challenge traditional 
assumptions, and embrace not only innovation and creativity, but also 
risk. STEM education is essential if we are to fully prepare our 
students for leadership in a global context.
    The work ahead requires new platforms for collaboration. By its 
sheer size, The Ohio State University is the most massive intellectual 
platform in America. From fostering the world-renowned and globally 
relevant research on the loss of polar ice at the Byrd Polar Research 
Center to co-founding one of the nation's finest early college STEM 
high schools, Ohio State brings talent, knowledge and resources 
together to tackle some of the toughest global problems. As we look to 
amplify and accelerate the quality of STEM teaching and learning from 
preschool through graduate school, we recognize that collaboration 
platforms are necessary to help dismantle barriers and to speed the 
cross-fertilization of innovative ideas, programs and solutions. Ohio 
State's STEM education strategy centers on three platforms for 
collaboration.

THREE PLATFORMS FOR STEM EDUCATION AT OHIO STATE

    First, we enhance the power, reach and relevance of STEM education 
by ensuring that our internal academic structures support collaborative 
research, teaching and service on problems that cut across disciplinary 
borders.
    We are investing in trans-institutional Centers for Innovation and 
Innovation Groups to encourage interdisciplinary scholarship across our 
campus. We are removing structural and budgetary boundaries and 
facilitating faculty collaboration to address issues and problems of 
global dimension that affect the quality of the human condition. The 
centers and groups are tackling challenges such as international 
poverty, food safety, computational modeling of global disease, and 
complex human, natural and engineered systems. With specific respect to 
STEM education, our recently merged College of Education and Human 
Ecology provides a collaborative platform to spur connections in human 
health, nutrition, family conditions, brain development and academic 
performance. Another major collaboration--both physically and 
intellectually--is occurring with our academic Medical Center. There, 
partnerships of all kinds are flourishing, translational medicine is 
taking hold, and plans for greatly expanded facilities are proceeding 
apace. State-of-the-art facilities are meaningless if top-notch medical 
care and talent are not available. With that in mind, we have partnered 
with Columbus State Community College to advance a much needed STEM 
workforce pipeline for health care workers.
    Second, we are strengthening and extending collaborations with our 
early childhood and K-12 partners on the three most critical factors in 
making sure every child succeeds--the equitable distribution of high-
quality teachers and school leaders, turning around persistently low-
achieving schools and aligning the entire educational system around 
college- and career-ready standards.
    Three examples demonstrate our commitment to increasing the number 
of high-quality teachers in STEM fields and enhancing an educational 
system around college standards: Metro Early College High School, 
Project ASPIRE, and Wonders of the World.
    Metro Early College High School is a joint project of Ohio State, 
Battelle, and sixteen central Ohio school districts that began in 2006. 
This nationally recognized and Gates-funded STEM secondary school takes 
a project-based and integrated curriculum approach to preparing a very 
diverse student body (many first generation college students) to be 
college- and career-ready. Students at Metro participate in self-
directed and hands-on learning experiences with teachers and mentors at 
Ohio State and in the community, and they participate in independent 
research projects and community internships. In June 2010, Metro will 
graduate its first class, all of whom have achieved college admission. 
Most Metro students have taken college coursework, with an average Ohio 
State GPA of 3.4.
    Metro also serves as a research and development platform for 
Columbus City Schools. Metro helped launch Linden McKinley STEM Academy 
in a high poverty area of Columbus, and is the inspiration/prototype 
for the design and launch of state supported STEM schools in Dayton, 
Cleveland, Cincinnati, Akron and Columbus and other schools around the 
country. Dr. Jeffrey Wadsworth, Battelle CEO, will elaborate on this in 
his testimony.
    Our overall STEM education strategy has been developed around Metro 
Early College High school. Ohio State benefits from its Metro 
partnerships in the following areas:

        <bullet>  STEM R&D Innovation: Advances the science of STEM 
        teaching and learning and applies research-based knowledge to 
        the improvement of practice, particularly in high schools and 
        higher education.

        <bullet>  Teacher Quality: Helps Ohio State to be a national 
        leader in an enterprise-wide approach to a teacher residency 
        program model for STEM educators.

        <bullet>  College Readiness and Access: As perhaps the only 
        early college high school situated on the campus of a research 
        intensive university, Metro helps Ohio State to most 
        effectively connect high-impact STEM-oriented early college 
        efforts, particularly for underrepresented and first-generation 
        student populations.

        <bullet>  Economic Development: Focus on STEM-oriented talent 
        pipelines in key driver industries such as advanced energy/
        environmental technologies and health and life sciences.

        <bullet>  Outreach and Engagement: Leverage Metro's capacity to 
        serve as an outreach and engagement portal for externally 
        funded research projects in STEM disciplines.

    The second example combines two major initiatives, Project ASPIRE 
and Wilson Fellows, to increase high-quality teachers in underserved 
schools in Columbus, Ohio. There is one simple truth that guides our 
support of schools--the quality of an education system rests on the 
quality of its teachers. This philosophy resulted in a $13 million 
Teacher Quality Partnership grant for Ohio State's Project ASPIRE from 
the U.S. Department of Education's Office of Innovation and 
Improvement. In partnership with the state's largest school district, 
Columbus City Schools, Project ASPIRE is designed to deliver more than 
600 teachers in high-need content areas such as science and math. In 
the next five years, these teachers will be equipped to help low-
achieving students in low-performing schools to grow and succeed 
academically.
    We have aligned Project ASPIRE with the Woodrow Wilson STEM 
Teaching Fellows. In partnership with the Woodrow Wilson Foundation, 
Ohio State will design, deliver, scale and sustain an academically 
rigorous, graduate-level, clinically based teacher residency program 
that: a) attracts the very best candidates from traditional and non-
traditional pathways; b) places and supports strong STEM middle and 
secondary teachers in high-need schools; c) reduces teacher attrition 
and associated costs; d) transforms teacher education in Ohio; and e) 
strengthens the quality of STEM teaching and learning. This is an 
enterprise-wide commitment that will fundamentally reshape the way we 
prepare STEM educators and work with schools and school districts. 
Combined, Project ASPIRE and the Woodrow Wilson STEM Teaching Fellows 
deepen our shared responsibility with Columbus City Schools to co-
manage a human capital system that greatly increases the chances that a 
student will have access to high-quality math and science educators.
    One final example is the Wonders of the World science outreach 
program, or W.O.W., led by Dr. Susan Olesik. Since 1999, Dr. Olesik and 
her team have successfully paired science fellows with elementary 
school teachers to improve science education. Now she is working with 
academically talented graduate students in the sciences to collaborate 
with third through fifth grade teachers at Columbus City Schools to 
develop hands-on, inquiry based science lessons to cover all areas of 
the elementary science curriculum. Reported Ohio Proficiency Test 
scores show dramatic improvements in the passing rates in science among 
the elementary school children involved, and teachers participating in 
the program are showing great progress in their science content 
knowledge and their ability to teach inquiry-based science lessons.
    With continued funding from the National Science Foundation, Dr. 
Olesik is now institutionalizing these efforts at Ohio State and with 
Columbus City Schools. New fellows and teachers are chosen through 
competitive application processes to ensure that the best graduate 
students are paired with teachers who are committed to improving their 
ability to teach science. The W.O.W. program is substantially enhancing 
graduate education at Ohio State, having a large impact on elementary 
school teachers in inner-city schools while advancing science skills of 
the students they teach.
    Our third platform is to unleash our greatest resource--our faculty 
and researchers--to develop new STEM education programs and assessment 
tools to replicate, imitate and expand successful programs to the state 
and national level.
    The Battelle Center for Mathematics and Science Policy is housed at 
Ohio State and headed by former astronaut and current vice-chair of the 
National Science Board, Dr. Kathryn Sullivan. This center addresses the 
need for strong science and mathematics education as a cornerstone of 
U.S. global competitiveness by developing policies and practices that 
will increase the number of students who pursue careers in STEM 
education. Presently, the Center is currently engaged in a major STEM 
modeling program, which includes powerful analytical tools designed to 
guide decision-making across the entire spectrum of STEM education, 
from policy to program to practice.
    Using Ohio as a testbed, Dr. Sullivan and our colleagues at 
Battelle seek to understand how success in STEM education is linked to 
the economic growth and competitiveness of the state. This effort would 
be impossible without the partnership of Battelle, as well as also the 
Ohio Business Roundtable and the Business-Higher Education Forum. It 
will involve a broad spectrum of partners from K-12 education, higher 
education, government and industry.
    At the national level, Ohio State is participating in the Science 
and Mathematics Teacher Imperative (SMTI), spearheaded by the 
Association of Public and Land-Grant Universities (APLU). SMTI is a 
commitment by 122 public research universities across 42 states that 
prepare more than 7,500 math and science teachers annually--the largest 
initiative in advancing the preparation of science and math teachers in 
the nation. Our pledge is to substantially increase the number and 
diversity of high-quality science and mathematics teachers we prepare, 
and to build better partnerships among universities, community 
colleges, school systems, state governments, business, and other 
stakeholders. As stated during its commendation by the Obama 
Administration's Educate to Innovate effort, the collective goal of 
SMTI is to prepare more than 10,000 teachers annually by 2015. SMTI 
institutions are committed to quality and are using SMTI as a national 
platform to identify and share exemplary practices encompassing leading 
efforts such as Noyce Scholarships, Wilson Fellowships, UTeach and 
other leading approaches to foster expansion of successful programs. We 
look to our participation in SMTI as a mechanism to share our efforts 
and understand the innovations by others for potential adaptation in 
Ohio.

PARTNER OR PERISH

    Academics are all too familiar with the phrase ``publish or 
perish.'' When it comes to successful STEM programs, I suggest that 
institutions of higher education must ``partner or perish.'' We are 
fortunate to be geographic neighbors with the Battelle Memorial 
Institute, a global leader in research and development, and we are 
aggressively deepening our collaboration to meet pressing needs.
    In addition to the specific partnerships with Battelle and Columbus 
City Schools for Metro and Project ASPIRE, we are members of 
STEMColumbus, which brings together Battelle, American Electric Power, 
Columbus City Schools, Educational Council, the Ohio State colleges of 
Engineering and Education and Human Ecology, and COSI, an award-winning 
science center in Columbus, in a partnership to locate, link, lift and 
leverage Columbus City Schools middle and high school STEM clubs, camps 
and competitions.
    Ohio State is also a founding member of the Ohio STEM Learning 
Network (OSLN). This is an unprecedented collaborative aimed at 
building and connecting STEM teaching and learning capacity in regions 
across Ohio. At its core, OSLN is focused on student and teacher 
success, built from a slate of committed partners from P-12 education, 
higher education and business and industry. Designed from a systems 
engineering approach, the OSLN develops and connects a state-wide 
system of innovative STEM schools and Programs of Excellence, 
leveraging the ongoing work of regions across the state, along with a 
$12 million grant from the Bill & Melinda Gates Foundation and an 
initial $5 million investment from Battelle.
    Our successful partnerships flourish for several reasons. Together 
we mobilize, engage and empower the right stakeholders to make 
decisions on behalf of the institutions. We also must seek agreement 
and commitment to specific outcomes, as part of developing a 
sustainable business model. We select an approach that meets explicit 
standards of proof, scalability and sustainability. Throughout the 
process, we build in oversight mechanisms. And finally, we communicate, 
communicate, communicate.

RECOMMENDATIONS FOR COMPETES REAUTHORIZATION

    I would like to recognize the leadership in Congress and the White 
House, both past and present, to the issue of STEM education. Through 
America COMPETES, Congress has pushed the Federal Government to do a 
better job aligning Federal programs to meet the needs of our students, 
teachers and researchers that are the STEM pipeline. As with any 
legislation, implementation is far from perfect. It is in the spirit of 
gratitude and good partnership that I offer a few suggestions as you 
debate the COMPETES reauthorization:

        <bullet>  Approach STEM education from a P-20 perspective. 
        Nearly every report issued over the last quarter century 
        suggests that the STEM pipeline must be strengthened. Federal 
        programs should strive to better link the efforts from pre-
        kindergarten through the post-doctoral level. The multitude of 
        individual programs across Federal agencies ought to be re-
        aligned, both with one another, and with the growing industry 
        and university initiatives focusing on STEM education and 
        teacher development.

        <bullet>  Support early college STEM schools which have proven 
        success with underrepresented and first-generation students. 
        Metro Early College High School, and its sister institutions 
        across the country, should be afforded opportunities through 
        the Federal agencies to share best practices and compete for 
        innovation grants to enhance their outreach efforts to first 
        generation students.

        <bullet>  Demand, incentivize, support and recognize 
        collaboration at the horizontal and vertical levels. As I have 
        described, Ohio State is working with our peer institutions of 
        higher education, local school districts, the State of Ohio and 
        industry at many different levels. Each of our partnerships is 
        critical to the success of our STEM programs.

        <bullet>  Encourage national partnerships to make STEM 
        ``contagious'' through social networking and viral education 
        reforms. For example Teach for America, the School for 
        Everything and teachertv in the United Kingdom rely a great 
        deal on information and social technologies that attract and 
        invite talented minds to work together. A national and state 
        STEM education strategy can be greatly augmented by a digital 
        media and social networking strategy. Another way to make STEM 
        contagious is to form public and private partnerships around 
        ``high leverage'' problems using network strategies, structures 
        and tools to promote the flow of high value knowledge and the 
        development and exchange of powerful policies and practices.

        <bullet>  Provide sufficient resources. The funds provided 
        through the American Recovery and Reinvestment Act for the Race 
        to the Top and Investing in Innovation grant programs offered 
        significant incentive for institutions to change the way we 
        educate students and prepare citizens to lead the world in the 
        new knowledge economy. It is important to ensure that the 
        National Science Foundation is well connected to these 
        Department of Education efforts and that NSF funding is 
        appropriate. For example, it's been almost a decade since NSF 
        had a program specifically targeted to preparing science and 
        math teachers. While the NSF provides scholarships for students 
        through the Noyce program, it is important to provide some core 
        funding for universities to better develop their teacher 
        preparation programs to go along with this support for 
        students.

    In conclusion, I want to thank you for the opportunity to testify 
before this committee on such an important issue. This moment presents 
us with the greatest of opportunities: to wholly reinvigorate and 
reshape STEM education programs and to create a fully rounded system of 
education that is truly pre-K though life, one in which our 
interdependencies are our greatest strengths. Without question, you 
have a difficult job ahead. I respectfully urge you to move boldly, act 
quickly, and seek first-order change. And know that America's 
universities, and especially The Ohio State University, will be working 
with you to achieve our goals.

                      Biography for E. Gordon Gee
    E Gordon Gee, among the most highly experienced and respected 
university presidents in the nation, returned to The Ohio State 
University after having served as Chancellor of Vanderbilt University 
for seven years. Prior to his tenure at Vanderbilt, he was president of 
Brown University (1998-2000), The Ohio State University (1990-97), the 
University of Colorado (1985-90), and West Virginia University (1981-
85).
    Born in Vernal, Utah, Gee graduated from the University of Utah 
with an honors degree in history and earned his J.D. and Ed.D degrees 
from Columbia University. He clerked under Chief Justice David T. Lewis 
of the U.S. 10th Circuit Court of Appeals before being named a judicial 
fellow and staff assistant to the U.S. Supreme Court, where he worked 
for Chief Justice Warren Burger on administrative and legal problems of 
the Court and Federal judiciary. Gee returned to Utah as an associate 
professor and associate dean in the J. Reuben Clark Law School at 
Brigham Young University, eventually achieving the rank of full 
professor. In 1979 he was named dean of the West Virginia University 
Law School, and in 1981 was appointed to that university's presidency.
    Active in a number of national professional and service 
organizations, Gee served as a Trustee for the Harry S. Truman 
Scholarship Foundation and as chairman of the Kellogg Commission on the 
Future of State and Land Grant Universities. He is a member of the 
National Commission on Writing for America's Families, Schools, and 
Colleges, founded by the College Board to improve the teaching and 
learning of writing. He also serves as co-chair of the Association of 
Public and Land-Grant Universities' Energy Advisory Committee.
    Gee is a member of the Board of Governors of the National Hospice 
Foundation, the Advisory Board of the Christopher Isherwood Foundation, 
and the Board of Trustees of the Christopher Columbus Fellowship 
Foundation, an independent Federal Government agency established to 
``encourage and support research, study and labor designed to produce 
new discoveries in all fields of endeavor for the benefit of mankind.'' 
He also is a member of the Business-Higher Education Forum.
    Gee has received a number of honorary degrees, awards, and 
recognitions. He was a Mellon Fellow for the Aspen Institute for 
Humanistic Studies and a W.K. Kellogg Fellow. In 1994, he received the 
Distinguished Alumnus Award from the University of Utah as well as from 
Teachers College of Columbia University. He is the co-author of eight 
books and the author of numerous papers and articles on law and 
education.
    Gee's daughter, Rebekah, is an assistant professor of clinical 
medicine in the Department of Obstetrics and Gynecology at Tulane 
University and a Norman F. Gant/American Board of Obstetrics and 
Gynecology/IOM Anniversary Fellow.

    Chairman Gordon. Thank you, President Gee. So I learned 
some new words here, P to 20, K to life and hardware to 
thoughtware.
    Dr. Gee. I am always available.
    Chairman Gordon. Thank you for the addition to my 
vocabulary, and tag, Dr. Wadsworth, you are next.

    STATEMENTS OF DR. JEFFREY WADSWORTH, PRESIDENT AND CEO, 
                  BATTELLE MEMORIAL INSTITUTE

    Dr. Wadsworth. Good morning, Mr. Chairman and distinguished 
Members of the Committee, and thank you, Representative Fudge, 
for your overly kind introduction.
    I am the second Tennessean on the Committee, and if I don't 
sound like I am from Tennessee, that is because I am really 
from east of Tennessee.
    Gordon Battelle back in 1920 wrote a very prescient will, 
and Battelle Memorial Institute was founded in 1929 on three 
principles that I think you will recognize. Conduct scientific 
discovery was the first. The second and very importantly was 
translate those discoveries into practical applications that 
would benefit the economy and society. And thirdly, he declared 
that with the proceeds of that work, we should reinvest in the 
education of men and women. So you can see a very strong 
fundamental base in the principles of Battelle that apply 
today. We started with 40 people in 1929, 80 years ago. We 
closed our books this year at $5.6 billion. It started with 
$3.5 million which in today's terms is about $40 million 
startup. We employ 20,000 people, mostly in the United States, 
in 100 different locations.
    We applaud the leadership in Congress and the White House 
on the America COMPETES Act. It is exactly what is needed. At 
Battelle, we have a firsthand understanding of the issues. 
Those 20,000 people we employ, 40 percent of them will be 
retirement eligible in five years. That is 8,000 people we have 
to replace. And we look at the source terms for replacing those 
people, they are both going down: foreign nationals who come 
and stay, and homegrown science and technology graduates and 
people in other disciplines. Increasing pull term to reduce 
source terms, that is a train wreck and that is why this 
subject is so important.
    So 10 years ago, we invested $10 million to create a 
company called Battelle for Kids. Today, it is an independent 
organization and a leading national provider of services across 
the country. It will do tens and tens of millions of revenue in 
the next couple of years. They work on value-added assessment, 
data-driven decision making and old-school reform. They 
measure, measure and measure performance, and that capability 
is becoming increasingly recognized as core to advancing our 
capabilities at schools.
    Having done that, we then established an operating unit 
within Battelle focused on education. I want to emphasize, this 
isn't a separate foundation. It is not a disconnected entity. 
It is a core part of what we do and we now think of it as a 
line of business, and it is focused on STEM education and 
partnerships and it is fully integrated into what we do, and 
our goal is very clear, our ambition is very clear. We believe 
in STEM competency being available for all students, not just a 
select few, and we focus our efforts on supporting students at 
high risk of being denied the opportunity to have a STEM 
education. It could be because of their race, their 
socioeconomic background, their family situation, anything that 
reduces their chance of accessing a high-quality education, 
that is where we focused our efforts.
    Now, what are we good at? We are actually good at complex 
program management, public-private partnerships, systems 
engineering, things like that. We manage seven of the Nation's 
major laboratories, and these involve hundreds of partnerships, 
and it turns out that in our view, it is this ability to bring 
complex teams together in a systems approach to education that 
is where we can make the greatest contribution. So we engage 
directly with public education partners, like-minded 
corporations and foundations.
    What have we learned? First of all, we believe in using our 
skills in STEM to create STEM networks. In other words, we use 
our scientific skills to create networks of institutions. The 
Metro Early College High School mentioned by my colleague, 
President Gee, is a prime example. Metro uses project-based 
learning centered on the students. Now, what does that mean? It 
means that a student, instead of saying, ``why am I studying 
algebra II,'' says, ``oh, that is how I can use mathematics to 
solve a problem.'' We are graduating students. For example, one 
is interested in combining journalism and engineering studies 
because he wants to increase public understanding of technology 
and its implications. Another student is passionate about 
interior design, but how do you apply sustainable products. 
These kinds of experiences are the sort that could indeed 
create new industries. So we are using STEM to create STEM 
networks and to produce students who have an intrinsic interest 
in using that.
    Our engagement of Metro lead to scale, so we started off in 
Columbus but then we joined with the Bill and Melinda Gates 
Foundation and they have been a huge asset to us, leveraging 
our investment, and we created the Ohio State--with Ohio State 
University and the State of Ohio, we created a public-private 
STEM Learning Network, and this was in order to go to scale. So 
since opening in 2006, we have helped design 10 new STEM middle 
and high schools across Ohio, and indeed as far away as 
Richland in the State of Washington. All are open to students 
of all ability. They are drawn in using a lottery system. We 
get D students and A students. And it turns out, as Gordon 
described, they end up graduating with very high competencies. 
In less than three years, we have had over $100 million 
invested. High schools now serve 3,000 students and more than 
100,000 students and 1,000 teachers have been connected in.
    I would like to comment on the Carnegie Corporation's 
Opportunity Equation report that was recently published, and 
they call for us to tap into the vast resources we have in our 
institutions of higher learning, museums and other science-rich 
community institutions, to essentially do school differently. 
They are saying we have to do it differently and we agree. 
Battelle's work also aims at doing schools differently through 
partnerships designed to spread innovations.
    Having gone to the broader Ohio network, we now seek to go 
and create multi-state networks. So right now we are currently 
creating networks across Ohio, Tennessee, North Carolina and 
Washington as we expand our philosophy and our investments.
    We believe that partnerships have to be deeply engaged, and 
. . . I am running out of time. In Cleveland, there is a very 
interesting public STEM high school in a building on the 
General Electric Nela Park Campus, where employees from GE work 
side by side with teachers and students. Another example closer 
to home is the Mid-Ohio Food Bank where food distribution and 
hunger issues involve logistics and economics.
    So let me conclude. We think there are three principles 
that you should look for in investments. One is design for 
scale, one is design for sustainability and the third is to 
measure, measure and measure and hold people accountable to 
those goals that we have set. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Wadsworth follows:]
                Prepared Statement of Jeffrey Wadsworth
    Good morning, Mr. Chairman and distinguished Members of the 
Committee. My name is Jeff Wadsworth and I am President and Chief 
Executive Officer of Battelle Memorial Institute. I want to thank you 
for inviting me to speak today on this important topic and to join with 
the other witnesses this morning--several of whom I know and work with 
personally on education programs as you have heard in their 
testimonies.
    To set some context, I will begin with a brief overview of the 
organization that I currently lead, and compare its mission with the 
role of this Committee. In the late 1920s, our founder Gordon Battelle 
established Battelle Memorial Institute through his will. Gordon 
Battelle was a visionary and part of a family of successful 
industrialists and humanitarians. He believed that scientific research 
was central to industrial competitiveness. Through his will, Battelle 
Memorial Institute was established with three founding purposes: (1) 
conduct scientific discovery, (2) translate discoveries into practical 
applications of benefit to the economy and to society, and (3) utilize 
the proceeds from these activities to benefit education of men and 
women for employment.
    What began with several dozen people in Columbus, Ohio more than 80 
years ago is today a global non-profit research and development 
enterprise with revenues of $5.6 billion. We employ more than 20,000 
people and operate in many locations around the world. The majority of 
our staff work in more than 100 sites across the United States. In 
addition, Battelle operates seven national laboratories for the 
Department of Energy and the Department of Homeland Security, 
including: Oak Ridge National Laboratory (operated by UT-Battelle, in 
conjunction with the University of Tennessee), National Renewable 
Energy Laboratory (operated by the Alliance for Sustainable Energy), 
Pacific Northwest National Laboratory, Idaho National Laboratory 
(operated by Battelle Energy Alliance), Lawrence Livermore National 
Laboratory (operated by Lawrence Livermore National Security), and the 
National Biodefense Analysis and Countermeasures Center (operated by 
the Battelle National Biodefense Institute).
    At Battelle, we have a first-hand understanding of the urgency 
addressed by the America COMPETES Act and we applaud the leadership in 
Congress and the White House on this issue. The talent available to 
replace the 40-plus-percent of Battelle scientists and engineers 
eligible to retire in the next few years is becoming increasingly 
scarce. A solid foundation in STEM education beginning in the K-12 
years must become the rule--not the exception--for every student 
growing up in the United States.
    The tie between education and economic development has never been 
more important than it is today--a view we share with this Committee. 
Although we have grown significantly over our history, the will of 
Gordon Battelle represents the constant guiding instrument for our 
organization. The role of Battelle's management team is to continuously 
interpret the will in a contemporary context and constantly search for 
the best and highest use of our human capital and facilities.
    Like many organizations with a high content of science and 
technology, we are strong advocates of STEM education and proud of our 
history of support to K-12, college, and workforce training programs. 
In 2001, we made a decision regarding the contemporary ``best and 
highest use'' of Battelle's financial resources and human talent in the 
area of education improvement. That decision ultimately led to 
integrating our education efforts in STEM as a full operating business 
of equal standing and priority to our core research and development 
businesses in Energy, Health and Life Sciences, National Security, and 
Laboratory Management. We are aimed at STEM competency for all 
students, not just a select few. In particular, we are joining with 
others in efforts to support students that are at high risk of being 
left behind due to any circumstance--their race, socioeconomic status, 
family situation--that reduces their chances of accessing a high 
quality education. Our efforts concentrate on K-12 STEM education, but 
as you will hear in my testimony, it is carried out through close 
partnerships with higher education leaders.
    Battelle demonstrates one of the basic tenets of STEM collaboration 
espoused by experts in the field. Corporations are finding that their 
core competencies in logistics, communication and broadcasting, 
research and development, and information technology have tremendous 
value in the education sector. This is especially the case in STEM 
education because these organizations simultaneously provide authentic 
models of what STEM careers look like to students and teachers.
    Battelle's core skills are in program management, public/private 
partnerships, systems engineering, and product design. These are 
coupled with our experience in management of multi-billion dollar 
assets such as U.S. National Laboratories that involve hundreds of 
simultaneous partnerships. We have translated this combination of 
competencies to the STEM education arena as we directly engage public 
education partners and like-minded corporations and foundations. I want 
to highlight for this Committee what we are learning along the way and 
offer some recommendations on ways the Federal Government can 
accelerate progress.
    We are seeing high value in an approach that ``uses STEM to create 
STEM.'' Metro Early College High School--described earlier by President 
Gordon Gee from The Ohio State University--is a good example of this 
principle at work. Metro uses project-based learning with STEM as the 
fundamental language for instruction. Art, history, composition, 
language, engineering, physics, mathematics are not separate 
disciplines. They are integrated into student-led projects as the core 
of learning in the school. A goal of project-based learning is to 
develop relevance. Relevance is actually quite easy to spot. It's when 
a student replaces the all too familiar: ``Why would I ever need to 
know this?'' remark with, ``Oh . . . so that's how that works!''
    OSU and Battelle joined with 16 public school districts in central 
Ohio as founders of Metro. But for OSU and Battelle--with adjacent 
campuses that house the nation's largest land grant university and the 
world's largest independent research and development organization--
creating a 400-student personalized learning STEM high school a mile 
away was not the sole objective.
    The design goal was to establish Metro as an authentic 
demonstration laboratory with real students and teachers under real 
world conditions. OSU would co-construct Metro's curriculum with 
teachers and STEM practitioners at Battelle, and consequently transform 
the way OSU trained teachers from the outset. The school would be 
lottery based and non-selective. Mastery would be required in order to 
earn credit for each subject. Ohio-based KnowledgeWorks would provide 
support in school design, essential in the expansion of the Metro 
concept.
    The fundamental design principle at Metro was the partnership 
itself. That is--we wanted to establish a school involving multiple 
public school districts, anchor higher education two-year and four-year 
institutions, and committed business that collectively commit to the 
design, start-up and continued governance of a school. Once 
established, the school would serve as a ``platform'' for proactively 
transferring learning and teaching practices to districts in its region 
and facilitate STEM education practices into those districts. Platform 
schools would be connected to other platform schools to amplify their 
impact.
    As a demonstration school, Metro has met its objectives so far. 
Chosen by lottery without regard to their prior academic performance 
when they entered ninth grade, Metro's entire senior class will 
graduate and all have received admission to college. Not all will 
choose the traditional STEM studies in higher education--in fact, many 
will not. But all have a mastery of STEM fundamentals that will serve 
them well in whatever endeavors they choose. The operative word here is 
``choose'' because all of their options remain open. Students' choices 
about college pursuits reveal their command of STEM. One student is 
interested in combining journalism and engineering studies because he 
wants to increase public understanding of technology and its 
implications. Another student is passionate about interior design and 
the application of sustainable products. These types of experiences are 
how new industries are born.
    Our deep engagement at Metro led to scale--a statewide effort using 
similar design principles. Since opening in 2006, teachers and leaders 
at Metro also have helped to design and open 10 new STEM middle and 
high schools across Ohio and as far away as Richland, Washington. All 
are open to all students, of all abilities. Informed by experiences 
with Metro, Battelle worked with the Bill and Melinda Gates Foundation, 
The Ohio State University, and the State of Ohio to form the public/
private Ohio STEM Learning Network. Battelle's education group manages 
this network with in-kind resources, and provides grants from the Gates 
Foundation and Battelle that are co-invested with regional funds. The 
network, called the OSLN (see www.osln.org), is a living laboratory of 
collaborative excellence. In less than three years, 10 STEM platform 
schools and 26 K-8 STEM programs of excellence have been created 
through this network. More than $100 million has been invested by 
public and private partners. The high schools now have 3,100 students; 
the K-8 programs reach more than 100,000 students district wide; and 
more than 1,000 teachers are involved.
    Each school and program implementation is tailored to local, on-
the-ground conditions. But all 36 schools and programs in Ohio, and the 
more than 300 partners that are at the core of the five regional 
``hub'' collaborations (Akron, Cleveland, Cincinnati, Dayton, 
Columbus), have agreed to identical commitments regarding how they will 
participate with each other and their responsibility to actively share 
tools, practices, and human talent.
    Educational systems are too strained to apply much focus and effort 
to effective collaboration. They are understandably focused on their 
own performance. We believe that careful network design and interface 
management are essential ingredients in scaling high quality education 
innovations. The basic formula for Battelle's network management is not 
a one-size-fits-all approach based on replication. While we are a 
highly disciplined organization in the way we apply design to solve 
engineering problems for our clients, our approach to managing networks 
of diverse partners is centered on relationship management and creating 
reciprocal value for the committed stakeholders. We place a deliberate 
focus on engineering the interfaces among stakeholders--across the K-12 
to higher education continuum, and across education/industry/state 
government. This focus enables partnerships in various locations to 
leverage their strengths and maintain their distinctiveness, while 
benefiting from the work and progress of others operating in the 
network.
    Statewide efforts are leading to multi-state efforts. A key to 
Battelle's success as a research and development organization is 
putting partnerships in place. We are applying these same skills to 
link schools and regions together in Ohio to accelerate STEM education 
innovation. The natural extension is to link states together in a 
similar systematic fashion. Battelle now is working with national 
organizations including the Bill and Melinda Gates Foundation and the 
National Governors Association to create multi-state networks. We 
currently are connecting networks across Ohio, Tennessee, North 
Carolina, and Washington, and adding other states and private 
corporations in this process. In all cases, we are building incentives 
for reciprocal agreements among states and regions. Committed 
collaboration is a requirement for participation.
    Partnerships must be deeply engaged and not be cheerleaders from 
the sidelines. As I indicated earlier, STEM education is enhanced when 
industry and private partners engage their core skills with educators. 
In Cleveland for example, GE Lighting has converted one of the 
buildings on its Nela Park Campus to house a Cleveland Public STEM High 
School. GE employees work side-by-side with teachers and students 
without the need to leave the workplace. Students see professionals at 
work. Battelle is also organizing a community of practice with our 
national laboratory partners so they can tap into the state networks 
and amplify their education outreach efforts.
    Advocates make the argument that STEM is a 21st century survival 
skill, but most programs pigeonhole STEM only where scientists and 
engineers work. STEM does not take place just in laboratories--it can 
be found everywhere. At Battelle, we are encouraging and funding STEM 
field sites and requiring connections of these sites to the regional 
schools that participate in the networks. In this context, a field site 
is a location where STEM experiences naturally occur. A good example is 
the Mid-Ohio Food Bank. Food distribution and hunger issues involve 
logistics and an understanding of data analytics. Students take on 
projects that are designed to improve the efficiency of food 
distribution, the use of community gardens, and new ways to increase 
local production. The direct application of STEM to social justice 
issues is a powerful motivator and offers relevance especially to 
students who come from poverty. Botany is taught inside a park 
conservatory and students learn about community gardens as a route to 
community self-reliance.
    Data matters and information sharing matters even more. Ten years 
ago, while we were exploring the best and highest use of our own human 
talent, Battelle helped to launch a school support organization through 
a $10 million initiative called Battelle for Kids. Today, Battelle for 
Kids is a leading national provider of services related to value added 
assessment, data driven decision making and whole school reform. 
Battelle for Kids currently is working with 20 school districts across 
Appalachia Ohio on a comprehensive approach to connect college and 
career ready standards to teacher quality and school redesign. 
Broadening and deepening the access of students to high quality STEM 
teachers and educational experiences is an essential piece to the 
overall effort in Appalachia.
    Despite many great examples of STEM initiatives and successes, 
there is little evidence they have had significant collective impact on 
STEM education nationwide. Indeed, there is plenty of evidence that 
suggests many of them are operating in isolation. Even the best 
teachers have few peers to call upon and little in terms of best 
practice and content that they can exploit for their students. The need 
for better instructional supports for teachers and students will only 
grow more acute as the states adopt fewer, higher, and clear world-
class standards.
    The reaction to this challenge is often seen as a logistical 
problem--create accessible databases, maps and inventories of programs 
and others will be able to more readily find solutions rather than 
having to reinvent them. The nation now has hundreds of databases of 
STEM initiatives that exist funded by states, Federal agencies, and 
private sources. Most are useful, but almost instantly out-of-date at 
the moment of creation. The lists also are incomplete because they 
often don't capture work in process by grass roots innovators who don't 
have the time, awareness of such databases, or see value in 
contributing to these works. The information is also most useful to the 
``STEM-literate''--those who already understand STEM's value in a 
complete education. The ``STEM-uninitiated''--the majority of educators 
and communities that are arguably the most in need--are not affected by 
these databases no matter how good.
    Battelle provides solutions to some of the world's most important 
challenges. This work gives us the opportunity to connect with nearly a 
thousand government and private sector clients and partners each year, 
including some of the world's leading corporations and governmental 
agencies. Collaborative innovation is one of our strengths and it is 
embedded in our core values. Bringing educators and the key 
stakeholders that support education together with system developers and 
STEM professionals opens up entirely new and desperately needed 
innovations in the way we design, deliver and sustain education that 
makes a difference for all children and all communities. There are more 
than 200,000 scientists and engineers employed by the Federal 
Government. These STEM professionals are vital to both the economic and 
educational future of the nation. We must find better ways to connect 
and develop STEM talent across generations, geography and 
organizational boundaries. Such grand efforts always begin and end with 
collaboration and all of us need to work very hard to recognize and 
reward partnerships that make STEM education relevant and readily 
accessible.
    In closing, I want to thank this Committee again for the 
opportunity to recap our perspectives about K-12 STEM education. As 
this Committee continues its important oversight of programs across the 
science and technology spectrum, we urge consideration of three 
important themes that I have underscored in my testimony: (1) provide 
incentives that create large-scale partnerships, (2) base incentives on 
efforts that build systems that last beyond the lifetime of individual 
programs, and (3) require information sharing as a specific design 
criteria.
    I would be pleased to answer any questions from the Committee. 
Thank you.

                    Biography for Jeffrey Wadsworth
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Jeff Wadsworth has been President and CEO of Battelle Memorial 
Institute since January 2009. Battelle is the world's largest nonprofit 
research and development organization, executing about $5B of work 
annually and employing about 21,000 people. Formed in 1925 as a 
charitable trust and headquartered in Columbus, Ohio, Battelle counts 
among its successes the development of the Xerox machine, pioneering 
work on the compact disc, and a number of innovations in medical 
technology, telecommunications, environmental waste treatment, homeland 
security, and transportation. Battelle has spun off new ventures and 
companies in fiber optics, pharmaceuticals, energy, electronics, and 
informatics. Its principal businesses today are fee-for-service 
contract research, laboratory operations, and commercial ventures, 
executing more than 5,000 projects for some 1,500 industrial and 
government clients throughout the world.
    Jeff formerly led Battelle's Global Laboratory Operations business, 
where he oversaw Battelle's management or co-management of eight major 
laboratories: six national laboratories of the U.S. Department of 
Energy, representing more than $3B in annual business (Pacific 
Northwest National Laboratory, Brookhaven National Laboratory, National 
Renewable Energy Laboratory, Oak Ridge National Laboratory, Idaho 
National Laboratory, and Lawrence Livermore National Laboratory); the 
Department of Homeland Security's National Biodefense Analysis and 
Counter-measures Center; and a renewable energy laboratory in Kuala 
Lumpur, Malaysia, designed, built, and operated by Battelle for the 
private sector. In March 2009, a consortium including Battelle was 
awarded a contract to manage the National Nuclear Laboratory of the 
United Kingdom's Department of Energy and Climate Change.
    Jeff was educated at Sheffield University in England, where he 
studied metallurgy, earning a bachelor's degree in 1972 and a Ph.D. in 
1975. He was awarded a Doctor of Metallurgy degree in 1991 for his 
published work and received the highest recognition conferred by the 
university, an honorary Doctor of Engineering degree, in July 2004.
    Jeff came to the United States in 1976 and has worked at Stanford 
University, Lockheed Missiles and Space Company, and Lawrence Livermore 
National Laboratory. In 2002, he joined Battelle and served as a member 
of the White House Transition Planning Office for the U.S. Department 
of Homeland Security. From 2003 to June 2007, Jeff was director of Oak 
Ridge National Laboratory, the Department of Energy's largest 
multipurpose science laboratory.
    Jeff has authored or co-authored nearly 300 scientific papers and 1 
book, and he has been granted 4 U.S. patents. His many honors and 
awards include three honorary doctorates, two honorary professorships 
from Chinese universities, and election to the rank of Fellow of three 
technical societies. He was elected a member of the National Academy of 
Engineering in 2005.
    Jeff and his wife Jerre live with their two Parson (Jack) Russell 
terriers in Upper Arlington. They have three adult children; two live 
and work in California, and one in Vermont.

    Chairman Gordon. Thank you, Dr. Wadsworth. And just for 
your information, the Carnegie and the Gates Foundations have 
each submitted statements for our record.
    I am afraid we are going to have to be going to vote soon 
so we are trying to get at least our first two questions. Dr. 
Simons, as mentioned earlier, you have a deep knowledge of 
Noyce and math by virtue of being a scholar, setting up a 
program that has been replicated there. So do you have any 
recommendations regarding the Noyce program specifically, and 
additionally, ways in which it could be strengthened or 
improved upon? And beyond Noyce, how can NSF and other Federal 
agencies best support improved teacher recruitment and 
retention in the STEM fields?
    Dr. Simons. That is a long question. Generally speaking, I 
am rather pleased with the Noyce program except for its size. I 
think it should be bigger. The grants that they make on an 
individual basis could be bigger.
    Chairman Gordon. How big should it be?
    Dr. Simons. Well, it depends on the size of the program. 
They have a fixed-size grant which is independent of the size 
of the program to which they are giving it. These grants could 
vary with the number of people involved, the number of teachers 
being trained or whatever rather than just be a flat amount. 
But of course, those flat amounts are a good start but again, 
they were too small.
    I think the Noyce program is a very good template. I think 
it could be substantially expanded, and what we learn from that 
might allow us to do an even more far-reaching program, perhaps 
with the National Science and Foundation and perhaps housed 
elsewhere. But I am very thankful for what has been done so far 
with that program.
    Chairman Gordon. Thank you.
    President Gee, with your experience at Ohio State, do you 
have any--I am not asking you to be critical, you know, you are 
not being critical, you are being helpful if you can give us 
any suggestions on how Noyce could be better improved.
    Dr. Gee. I think that Dr. Simons made the same point and 
that is the fact that obviously this is a program that has 
worked. I think what we have to do right now is, we have to 
invest in the things that are working. Those that are working, 
we invest in. Those that are experimental and not working, then 
we have to put to the side. And so I would say two things. One 
is the fact that you need to probably increase the amount of 
grants, but you need to increase the size of it.
    Mr. Chairman, I also want to make another point. We were 
talking about this last evening, and that is the fact that it 
can't simply be the National Science Foundation. There has to 
be a number of other entities in this country, including 
Federal agencies, that are starting these kinds of initiatives. 
If we just continue to turn to the National Science Foundation 
or to the Department of Education, we will not have the kind of 
results we need to have, and opportunities about and that is 
one of the things this Committee can encourage.
    Chairman Gordon. President Gee, to give you a--we agree 
with you. Let me tell you what we have done on this committee. 
We are starting an inventory of all the STEM education all 
across the Federal Government and we are finding that if you 
just push a button and say STEM education, you will find some 
will float to the top but you have to go deeper really to find 
it, and we are finding hundreds of programs. And so we are 
trying to create a--both inventory them and create an umbrella 
that will be better coordinate those. So as I was saying with 
Dr. Wadsworth earlier on another matter, it is easier to save a 
dollar than appropriate an additional dollar. So if we can get 
better use through synergy, and we are again in the process of 
that investment and hopefully we will find ways to make those 
dollars go further.
    Mr. Hall, you are recognized.
    Mr. Hall. Dr. Simons, I could listen to you all day, and I 
almost did. But let me tell you something, you were saying 
something, you were firing bullets every bit, and I was 
intrigued. Even I could understand what you were saying. And I 
suggest to you, Mr. Chairman, does their testimony that they 
submitted go into the record? If it doesn't, it sure should 
because everybody ought to read it. I think it is the best set 
of opening statements I have ever heard. They were great, to 
the point and just exactly what we needed.
    With that, I had a question I wanted to ask about Metro 
Early College High School, a secondary school that is a success 
story, equivalent to the Morris Elementary School. Dr. 
Wadsworth, I concur with you that a one-size-fits-all approach 
to replicating these schools can't work but different 
communities have different needs. I am sure you realized it 
when you were developing the Ohio STEM Learning Network. Could 
you maybe just elaborate on how you were able to successfully 
tailor the Metro model for other communities, and for other 
elementary and other middle schools?
    Dr. Wadsworth. Yes, that is an excellent point. I think 
there are some underlying principles that need to be in place, 
and after that, it does indeed need to be tailored to a 
particular area. So I think of it in terms of the `what' and 
the `how'. The `what' is to get more kids into this area and to 
provide some of the underpinning partnerships, the agreements 
that are necessary to create new schools. The detailed design 
has to flow from the local community. For example, rural areas 
in southeast Ohio have to be different than, you know, city-
based schools but the underlying principles of bringing 
business partners in, forming complex teams and allowing scale 
to progress are principles that need to be common to all of 
them.
    Mr. Hall. Sometime I would like to visit the Metro Early 
College High School.
    Dr. Wadsworth. We would love to have you.
    Mr. Hall. And I once again want to say it is the best 
opening statements, and I am going to--I won't say I am going 
to reread them; I am going to read them, by golly, and I thank 
all of you for being here. I yield back whatever time I have.
    Chairman Gordon. You can see I have a good partner here.
    Ms. Fudge is recognized.
    Ms. Fudge. Thank you, Mr. Chairman.
    Dr. Wadsworth, I really like what you said about the direct 
application of STEM to social justice issues. I believe that 
nearly all of the problems that we face as a society require 
some type of STEM solution, from affordable and energy-
efficient housing to child nutrition and obesity. How can we 
help to raise awareness of the intimate connections between 
these issues and STEM fields?
    Dr. Wadsworth. Thank you for the question. I really just 
echo the sentiment you have raised which is that when a child 
sees the application of STEM to a real problem, that is the 
most stimulating way to engage them into the field, and I would 
urge all Members to visit the Metro High School. You will be 
greeted by students who will show you around. You will go into 
chemistry classes, which in some cases, believe it or not, are 
being taught in Mandarin because the teacher is from China and 
the students asked to learn Mandarin, and you will go into 
complex lessons which correlate literature with film 
interpretations of the literature. It is not just about 
chemistry and math. You will see this constant engagement of 
how you bring mathematics and science to solving complex social 
problems, and it is the engagement of the students and the 
realization that these skills can be applied across the 
spectrum that I think is so exciting.
    Ms. Fudge. Thank you, Mr. Chairman.
    Chairman Gordon. Mr. Smith, you are recognized.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Gordon. Excuse me. I am sorry. Mrs. Biggert is 
recognized.
    Mrs. Biggert. Thank you, Mr. Chairman. This is an ongoing 
thing, it seems like. I even moved down here so I would--sorry.
    Thank you all for being here. I also serve on the Education 
Committee and yesterday we had a hearing with Secretary Duncan 
about, you know, what is going on and what the budget is for 
education, and as we look at our education system and see the 
low ranking that we have in this world, it seems like time is 
a-wasting and we really haven't increased the overall education 
for kids and it really worries me. One of the issues that 
Secretary Duncan raised was the fact that in China, you know, 
the kids go to school all the time and the focus is on 
education. It sounds like it is pretty rigid and something that 
our country would not want, you know, the type of education, 
but I do think that we really need to take a whole new look at 
it and I think what you are doing is really, you know, the 
opportunity for the future. Hearing, you know, like in Ohio, we 
just need to increase this type of education and look to the 
21st century where it is just not the traditional go to school 
from 9 to 3 or 8:30 to 3 or whatever the timing is and really 
to expand this program.
    So you talk about partnerships, you talk about, you know, 
the Federal Government. What can we do? You know, I go into 
schools and talk to the kids, and I have seen a dramatic 
increase in the number of students that really want to go into 
science, to be engineers and to be the mathematicians. They 
used to want to be Michael Jordan, then they wanted to be 
President. That has changed a little bit too. But how do we 
engage the students that don't have the access to your programs 
and how can we increase it?
    Chairman Gordon. Excuse me, Mrs. Biggert. Before they 
answer, let me tell the Members, because I know people are 
going to start to peel off because we only have five minutes, 
although it will be a long five minutes, as we know. Rather 
than set a time specific for when we will return, let me ask 
everyone to come back, you know, promptly after the last vote, 
and you might want to grab some of your compatriots on the way, 
and with that, I think President Gee, you were starting to 
answer Mrs. Biggert's question. Go right ahead.
    Dr. Gee. Well, I am going to be very swift hopefully. Two 
things. One is, there is an interesting phenomenon in this 
country that we really don't talk about and that is the fact 
that indeed we have some real challenges in our K-12 system, 
but think about this: all of a sudden we come and enter our 
university system, and the university system in this country is 
far and away the best in the world. And so how is it that we 
have a K-12 system that is not as good, and then we have a 
university that is the best in the world? And I think we need 
to do some deconstruction which allows us to take a look at 
that. I do have some views on that. But nonetheless, I think 
that is something that is important for this committee to take 
a look at.
    In terms of the partnership issue, I think as I stated 
earlier, the opportunity for us right now is to really 
reinvent. The thing about it is, is what we have done is we 
have gotten into this very sterile view that it is just about 
X. Rather, now what we have to do is, we have to question 
everything, we have to start anew. I sit next to Ellen here. I 
mean, the notion of what can happen in her world and my world 
is not so far. Actually it is now complementary and that is 
what we need to--those are the kinds of partnerships. We just 
need to look at each other and say, that is precisely what we 
are going to do.
    Ms. Futter. I would like to add to that if I could. As 
someone who sat on the Carnegie Commission that spoke so 
explicitly about doing school differently, as was cited, they 
really mean through these cross-sector partnerships, and it 
goes so much to the heart of what so many of you have raised 
today in terms of how do you get families engaged, how do you 
get children engaged. At the Museum, people are engaged. They 
may first be engaged by an exhibition and the exhibition might 
be on the topic of food, which goes directly to the question of 
obesity and a major public issue, or it might be an 
environmental subject or it might be human health, whatever it 
is. But it is not just the exhibition, which of course is where 
it can begin for a youngster and for families, but that we are 
also going to put together materials that can be used in the 
curriculum by teachers in training, by extending what is 
learned in the exhibition to the classroom, and can be done 
online. So this becomes a sustained initiative that is at the 
Museum, in the school, at home, empowering a broad swath of key 
players in enhancing science outcomes across this country.
    Mrs. Biggert. Would it help if we had something like 
Sputnik or something that the whole country gets behind? You 
know, what you are doing, you know, you said you can go to all 
these things but if we really had some way to really focus in 
on this and say we are going to change the nature of education.
    Ms. Futter. There is no question but that Sputnik played 
that role, and finding a similar kind of clarion call or lever 
would be exceedingly helpful, but frankly, funding it and doing 
it will get us a long distance and we are very grateful to 
participate in your activities today for that reason.
    Chairman Gordon. Well, energy independence and stability is 
our new Sputnik.
    So I think where we are now is, to our panel, we are going 
to adjourn. It will probably be about 30 minutes--oh, recess. 
Excuse me, excuse me, excuse me. Recess with Mr. Hall's 
permission. We are going to go vote. We will come back. Quite 
frankly, I suspect that we will lose a few Members on the way, 
although, you know, they are holding on. And so we might allow 
you to have one more round of general discussion, and you are 
welcome, we have a room over to the side to have coffee, water. 
Dr. Simons, Mr. Finkel might take you aside for something that 
you might have an interest in doing also.
    [Recess.]
    Chairman Gordon. Ranking Member-designate Smith has just 
arrived. Let us see. I think that Mrs. Biggert was the last 
witness so Dr. Baird, we will--and let me also say to everyone 
that at noon we are going to have to--oh, I am sorry. Mr. 
Wilson was next. At noon we are going to start to--two of our 
members have to leave, so we will see how we are going to deal 
with it.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. I was trying to get 
myself organized here.
    My question is to Dr. Gee. Dr. Gee, OSU has been a real 
leader in establishing partnerships with various companies, 
organizations, schools, and as a result--which has been a 
better OSU--a better educated workforce and better communities. 
Why do you feel OSU has been so successful in establishing 
these partnerships, and how can the Federal Government be 
helpful in encouraging similar collaborations around the 
country?
    Dr. Gee. I think two things. First of all, I appreciate 
that, but we haven't always been that successful. The truth of 
the matter is, is that I think that Ohio State--and President 
Futter and I were just talking about this--universities in 
general have been sort of isolated, arrogant. We felt that we 
knew what the world was about and we did not want to engage in 
relationship building. I think that the last five or six years 
have clearly demonstrated to institutions that we can no 
longer--particularly universities and colleges, we can no 
longer go it alone, that we really do need to develop 
partnerships, and by the way, the partnerships I am talking 
about across the spectrum, I believe in many ways the most 
powerful partner in the university setting is with our 
colleagues in the community college sector. And by the way, I 
want to be on record. I believe that the community colleges are 
probably the most important educational institute in this 
country. They are really the front door to the American dream 
and we need to understand that. We need to work very closely 
with them. And so we have worked very closely with a number of 
institutions. I will just make one note, that is, we have 
created very recently the first of its kind program with a 
community colleague which is a pathway to medical school, 
starting with the community college and working with them to be 
able to develop ways right into our medical school. And so I 
think the reason for our success is the fact that there is an 
ability to understand and cherish the fact that we do learn 
much from these partnerships, and I don't want to embarrass 
Jeff who is sitting right next to us. All of a sudden we 
discovered that gee, you know, with this magnificent friend 
called Battelle that we do have powerful reasons to have 
partnerships and I think that that is a driving force too.
    Mr. Wilson. Thank you. And this question is for all or any 
who would like to respond, but the Sixth District of Ohio, 
which I represent, is largely rural where educational 
resources, opportunities can be very scarce. How can the 
opportunities being developed in Columbus, Ohio, and other 
urban areas throughout the country through innovative STEM 
programs be made applicable to Appalachia and other rural areas 
of this country?
    Ms. Futter. I will take a shot at that if I may because I 
was very taken also when Ranking Member Hall made the point 
earlier about the limited resources that we face. One of the 
great things about museums and other institutions of this type 
is that they really are storehouses of resources, and just to 
give you some sense of what that means, in our institution 
alone, which I use as an example because it is what I know 
best, we have 32 million specimens and artifacts as 
collections, and that is everything from a gigantic T. Rex to 
an equally gigantic meteorite, and it goes on and on from 
there. These are things that create wonder and excitement and 
that are the gateway to learning, but beyond that, we have over 
200 practicing scientists and we have been training teachers as 
well as young students. We are the only museum in the United 
States authorized to grant Ph.D.s in comparative biology.
    So what this means is an opportunity and a window for the 
general public, for teachers, for students to engage with real 
things--that is the power of reality--to see real science in 
practice and to engage with scientists and to have an 
opportunity to get a window on the scientific method, and that 
is not unique to an urban location. I heard your comment on 
Appalachia. There are institutions across this country with 
this kind of capacity. They may not all be big museums. It may 
be a 4H, it may be a nature center, but there will be within a 
region resources that can be accessed for people who have the 
opportunity to learn from them all over the country.
    Mr. Wilson. Thank you. Anyone else?
    Dr. Gee. Can I just chime in for one second, because that 
is like a home-run ball for me. Let me just read to you from a 
publication, the Mathematics Coaching Program, which comes out 
of our College of Education and Human Ecology, and our dean is 
right behind us, Representative Wilson. This is a direct quote 
from it. This is this Mathematics Coaching Program which is 
where we work with the rural schools. ``One of the amazing 
events is that the first Appalachian school in this program 
moved from academic watch to excellent school improvement 
status in three years,'' so it shows that in that--and by the 
way, this is the history of the great land-grant universities. 
I mean, it is not about what we do in Columbus, it is about 
what we do in all of the 88 counties in Ohio. It is about the 
notion of 4H and extension and all of those programs. It is the 
people's university making the difference to all of those 
folks, and that is a great story right there. So let us 
celebrate that one.
    Chairman Gordon. Thank you, Mr. Wilson.
    We are going to have to--I don't mean to be heavy-handed 
here, but Mr. Smith and Dr. Baird are our--in terms of when I 
was in Sunday school, we used to get, you know, badges for 
attendance. They get the best attendance award so I really want 
them to have an opportunity, and then we are going to have to 
shut things down. So we are going to go to Mr. Smith and then 
Dr. Baird.
    Mr. Smith. Thank you, Mr. Chairman, and I will try to be 
quick.
    This is a very important subject obviously, and I am 
grateful for the panel here. Perhaps the Chairman is already 
working on this. I would love to see a second panel. And 
certainly I am grateful for your input as well. I would like to 
see a second panel consisting of a school board member, a 
current or former science teacher and a school administrator, 
those folks who are constantly fighting the battle of filling 
empty positions or recruiting and hiring the most effective and 
important, and while I am grateful that we are able to pay some 
good teachers, perhaps I would say it still isn't enough, and 
yet probably the best reward for a teacher, for example, 
locally back home would be an elementary teacher attending an 
Air Force Academy graduation where a student graduates, a 
former student of hers graduates with honors and, you know, 
catapulting that student out into the science world ultimately 
after obviously some service to our country. But I am just 
wondering if any of you would weigh in on the obstacles that do 
exist for those school board members or school administrators 
wishing to hire folks who can't seem to get the right person 
for whatever reason, if any of you would wish to comment on 
that.
    Dr. Simons. Well, I am not sure I understood the question 
but certainly one obstacle faced by school boards if they want 
to hire exceptional people, and I would say again in STEM 
education which is most competitive, is the flat salary scale 
imposed by the unions. So I am not against unions but I am 
against flat salary scales that don't recognize again the law 
of supply and demand. So to the extent that unions could be 
more flexible in their approach to salaries, that might make it 
easier to do things.
    Dr. Gee. Let me just respond because I think that really is 
a great question. We all kind of looked at each other, is the 
fact that I think if you gave us truth serum or I gave you 
truth serum, what we would understand is the fact that what we 
have done is, we have created a system in this country in which 
we do not reward creativity, energy and agility among our 
teachers or anywhere else. The second thing is, we have created 
a system in this country in which we always say to our kids and 
at our universities, well, if you can't be a doctor, if you 
can't be a lawyer, if you can't be an engineer, you can always 
be a teacher. So I spent some time in Germany. The word layer 
in German is of the highest order, the word ``teacher,'' and we 
need to change that concept in this country. So it is about 
creating a high-performance culture through a reward system, 
and that is how you are going to get to that point.
    Ms. Futter. And related to that direct point, obviously to 
get the best people teaching in STEM, we have to give them the 
proper training. They have to see and engage in real science 
and learn what the scientific method, the scientific process 
is, and in that way be able to communicate to young people the 
excitement of discovery, the detective story of science. So 
teacher training, which is something that all of us are so 
focused on at this table, is key to this.
    Mr. Smith. Well, I will admit that I didn't appreciate 
science as much growing up as I do now with the practical 
implications and the public policy application as well. So I 
just hope that we can more appropriately treat teachers as 
professionals, because they are, and yet we have a system that 
I am afraid does not treat teachers as professionals and 
certainly we need to focus on that. Thank you.
    Chairman Gordon. In full disclosure, Mr. Smith was offered 
a teaching position in Tennessee but we didn't offer him enough 
and so he went off and did other things. And I will also say 
that at the Subcommittee level that we did have that exact 
panel that you had recommended and so we do have that input 
into this legislation.
    Dr. Baird is recognized.
    Mr. Baird. I thank the Chairman. I want to thank our 
distinguished panelists for being here, but more importantly 
still, for your work on a daily basis.
    I want to put about three things out quickly, and this is 
coming from somebody who has taught statistics and research 
methods at the university, and as an untenured professor 
completely revised our statistics and methods class so that it 
made sense to people who wanted to learn it. A few things. I 
have twin boys who will turn five in three days, and I want 
them to learn basic math, and one of the ways you would think 
you might be able to do it is to log online and get some free 
software. I will tell you it is abysmal, and I would just 
encourage you, you know, in the next couple of days, imagine 
you are a parent of three- to five-year-olds and you want to 
log on and get something. Now, you find math games but they are 
terrible by and large. They spend a whole lot of time walking a 
duck through a park so he can stack two logs and say ``two'' 
but it took you five minutes to get to that, and so the first 
point is, I just would encourage you to do this because that is 
the seed corn at some level.
    The second point is, Vern Ehlers and I are both proponents 
of at least a voluntary national curriculum so that math 
teachers around the--not to take away the creativity of the 
individual structure and all the hands-on pedagogy that is so 
essential, but so that across the country, we know our kids are 
getting a standard curriculum, and there are two benefits to 
this. One, as a parent of teenagers, I had the experience of 
trying to remember how quadratic equations worked, and I did it 
pretty well but it was a rusty brain that was trying to do 
this, and that is a brain of somebody who has had that 
training. The average parent can't help their kids with math 
past about the 6th grade, if that, and I don't mean that 
critically or elitist. It is a fact. We do almost nothing to 
help those parents help their kids with their homework. They 
run screaming from the room, ask your older brother, ask your 
neighbor, whatever. We need to do more to help the little kids 
learn with software and games that are free for everybody. 
Secondly, we need to help the parents help their kids in some 
fashion, empower and educate them.
    And then finally, one thing we neglect--and I applaud your 
effort to teach high school--to teach people who will go back 
into high schools. My experience at the college level was, a 
lot of liberal arts majors desperately need basic math courses 
but who is there to teach it? Your math department is filled 
with people who are so darn smart, to ask them to teach liberal 
arts people is a waste of their time and an obstruction to 
their career. We need a whole cadre of people who teach at the 
university level, who teach math in a comprehensible, usable 
fashion so that our broad society gets it, including colleagues 
in this institution who may not have--myself included in many 
ways. So I just throw those three sets out. I would welcome 
your thoughts on any of them.
    Dr. Simons. Well, I would like to start with your 
colleagues, and I would be delighted to come down here once a 
week and give some lectures to the Congressmen and Senators 
about math, and I wouldn't even ask to get paid, if I could 
duck out for a cigarette every once in a while.
    You know, everything you said makes sense. It is very 
difficult for parents, and I think a lot of the professors at 
universities do have some sympathy, professors in the 
mathematics department, for the kind of folks you are talking 
about. I think it is not as dismal as that. When I was a 
professor, I taught a whole remedial course which I found--it 
was pretty interesting, actually, and these were kids who came 
to the university, just didn't know much, and the cutoff was 
fractions. If a kid could add fractions and subtract fractions, 
he was in good shape, he would be OK. But two-thirds of the 
people just couldn't do fractions and, you know, that is 4th, 
5th grade stuff. So the parents don't know, and maybe if we get 
a little smarter as a country in another couple of generations, 
more parents will know, but it is really a problem.
    Mr. Baird. Well, one of my models of the national 
curriculum, and Vern and I have discussed it, is if you had 
that, then you could coordinate parent help literature on TV or 
more easily on the Internet so a parent could say OK, anywhere 
in the country I know that my 5th-grade kid is at this lesson 
level. They are going to have illustrated tutorials online and 
we can sit down and the parent can get it and say oh, OK, I get 
it. If we did----
    Dr. Simons. That makes a lot of sense. If you got different 
school districts to agree to all that, I think it would be 
fine. But I don't know if it is possible but I think is a darn 
good idea.
    Mr. Baird. Politically it may not be.
    Ms. Futter. I would add several things to that. First, your 
comment on parents is so central to both math and science, and 
it is just indisputable. One of the great things about informal 
institutions is family engagement, and this is a place where 
families learn together, and by tying it then to these cross-
sector programs with the schools, it also has a formal 
dimension, a systematic dimension, as the Chairman alluded to 
at the beginning.
    Second, I think common standards are critical. The 
Carnegie--IAS [Carnegie Corporation of New York--Institute for 
Advanced Study] Commission requests not only for common 
standards but that they be fewer, clearer and higher. It is not 
just a morass of standards, it is getting the right ones and 
making them clear.
    Your comment on the liberal arts struck a particular chord 
with me as a former college president where we introduced at 
Barnard College a requirement in the freshman year in 
quantitative reasoning, but it had to do with all kinds of 
things like music, like the Constitution, and I think tying 
math and science to pressing ideas is one of the great 
strategies. And it is something that we do in the Museum, 
whether it be energy policy, human health or any of the other 
many, many topics that we can take up but the public attention 
and interest in the major issues of our time, and that also 
ties back to the workforce and where they can later fit in with 
jobs through the right training.
    Dr. Gee. I will just add a couple of things. First of all, 
I will just say that there is no substitute for good parental 
involvement. I mean, it is absolutely essential. And I think 
that that is one of the issues we are going to have to address 
in STEM and other things is, how do we get parents engaged and 
how do we not have them view our public schools particularly as 
places they send their kids to get away from them, and I think 
that is enormously important.
    The second thing, and this is a long discussion, but what 
you are talking about, as someone who has taught at a 
university, you know that our reward and recognition structure 
needs to be totally reexamined in order for us to be able to 
say that there is more than one way to salvation and those who 
teach are going to be rewarded and rewarded well simply not as 
a passage, and I think that those are important discussions 
that we can have at some other time.
    Dr. Wadsworth. I would just add, common standards, I agree. 
Achieve is trying to look at that as well. I am on the board of 
Achieve. I would just observe, my own children went to a very, 
very good public school in Menlo Park, California, and 
mathematics was terrible. So I can only imagine how difficult 
it is in other schools.
    Dr. Gee. This is the final comment. I was just going to say 
that mathematics is very intimidating. Every time I go and 
visit with our math department, very distinguished math 
department, I take Valium before I go. They scare the hell out 
of me so I have to do that.
    Chairman Gordon. Well, this is such an important discussion 
and I am sorry it has been bifurcated. In continuing with the 
unusualness of how we have dealt with this, let me say those 
panelists that need to leave now, please do so. We have just--
Gabrielle Giffords, who is the Chair of our Space and Aviation 
Subcommittee, has just come in and she will have a question for 
those that are left, but those that have to go catch a plane, 
whatever it might be, please go right ahead.
    Ms. Giffords, you are recognized.
    Ms. Giffords. Thank you, Mr. Chairman, and I want to thank 
and welcome the panelists for being here today. I will keep it 
brief. I know that we have votes and we are likely to be called 
out.
    I think it is interesting when listening to the panelists 
and the discussion that the backdrop behind all of this is our 
Nation's struggling economic situation, and while we have a lot 
of bills that we are working on and a lot of plans here in the 
United States Congress to improve our short-term problems, 
oftentimes I feel like we are not having the most important 
part of that discussion, which is our long-term education 
investment and involvement, and STEM education is absolutely 
everything. I often say to groups that I meet with back home in 
my State of Arizona, if you really want to look into the 
future, just take a look at your 4th-grade math scores. That is 
the indication of where we are going to be 20 years from now, 
50 years from now, frankly. It is all at the 4th grade a lot of 
that is determined.
    I was really proud of the COMPETES bill that was led by the 
Chairman a couple of years ago, and our job in the Congress, I 
think, is to continue to support the COMPETES bill and to have 
experts like yourself articulate why COMPETES really matters, 
and a lot of that discussion has taken place today, but reality 
is going back to my home State of Arizona. The United States 
Chamber of Commerce gave Arizona a D in academic achievement 
and an F in postsecondary and workforce readiness. Also, 
Arizona has the second highest student-to-teacher ratio in the 
country and is second to last in terms of per-pupil 
expenditure. So some of these statistics are real reminders 
about what is going to happen in the second fasting growing 
state in the country.
    So my questions that I present to our two panelists are 
really, how is it that we effectively communicate, particularly 
to the industries that are out there, to other decision makers, 
the importance of STEM education? How do we connect the dots to 
the industries that are going to depend on this future 
workforce? Because there is a crisis that is brewing, and with 
so many retiring engineers and scientists, so much of the 
workforce is leaving, I don't think the general public has 
really heard that message loud and clear. So if I could just 
hear from the panelists about that?
    Dr. Wadsworth. It is a curiosity to me that we lead the 
world in the most advanced scientific facilities without a 
question, you know, so somehow there is this tremendous 
disconnect between the fact we have the greatest university 
system, we have the greatest research facilities and yet we 
don't, somehow, appreciate the investment that is necessary. 
And I think most of us who lead organizations eventually spend 
our time, a lot of our time on education because all roads lead 
back to Rome, and I think what you are seeing is a start of a 
more intense conversation about the need to change policy, put 
more money in, get everyone involved. It is not just about 
teachers at schools, it is about businesses, institutions 
playing a role, because many different departments have 
educational needs and they need to be encouraged to spend their 
resources on it as well. And at the end of the day I think it 
is a lot about partnerships and recognizing the need to--the 
other thing that I find--and then I will shut up--is the more 
you study it, the more you drive down the age chain. So you 
start worrying about kids by age three who are disadvantaged, 
and the single biggest connector is family income. The biggest 
correlation between educational success is with family income, 
and that is a real problem because we know what happens when a 
child is raised in a disadvantaged environment. It is a very 
complicated problem.
    Ms. Giffords. Dr. Simons?
    Dr. Simons. Well, you have asked a question about 
communication, about which I am not a great expert. But I will 
make one point, one idea. As part of what we do in Math for 
America, is give these fellowships and awards to people to come 
into teaching and we pay them and so on, and it is quite an 
honor. Now, if this program were to be made truly national with 
tens of thousands, maybe even 50,000 slots for national 
fellowships for STEM, let us say, high school teachers, and if 
you got one of these fellowships and you were a teacher or 
about to become a teacher you would get, say, $20,000, $25,000 
a year. You would be known as a National Teaching Fellow. You 
would get it because you knew the subject or whatever. There 
would be some hurdle, of course. But that would--if there were 
a reasonable number of these things, that would cover--there is 
350,000 roughly teachers of math and science in our schools. So 
if you had 50,000 or 60,000 or 70,000 of these people who were 
national teaching fellows, first of all, it would be a 
tremendous injection of brains into the system. But second of 
all, the existence of that program, which maybe your neighbor's 
kid got or whatever, would really--people would hear about it, 
right? If you do things in large numbers, a finite number, 
which I am certain you could, it would communicate a message 
that this is a high-class thing. It would, I think, raise not 
only the awareness but the sense of importance of this 
education. So that is an idea. And if you want to prepare such 
a bill, I will be delighted to help in its drafting.
    Ms. Giffords. Thank you, Dr. Simons.
    Mr. Chairman, just in closing, I am a proud product of 
public schools. I am here today because of teachers and 
administrators and folks that cared about our community and 
were really dedicated to teaching kids, and not only does it 
pain me to see what is happening now in my home State of 
Arizona, but across the country, where as the Rising Above the 
Gathering Storm report indicated, other countries are gaining 
momentum and our country is falling behind. And we can't allow 
that to happen. So this is important. I mean, we have got to 
keep, you know, marching ahead and banging the drum and really 
figuring out those ways that both policy--but also in terms of 
being able to communicate effectively why this matters, and I 
am excited to work with you on it, Mr. Chairman. Thank you.
    Chairman Gordon. Thank you, Ms. Giffords.
    You know, this is sort of an odd day here, but through the 
preparation for this hearing and discussions that our staff has 
had with yours, this is one of a variety of hearings that we 
have had all coming together. We hear a lot of common 
denominators and this is going to help us as we put the final 
touches on our COMPETES bill.
    So with that, let me say that the record will remain open 
for two weeks for additional statements from Members and for 
answers to follow-up questions, and we would also make it 
available for the witnesses if you have additional statements 
that you would like to make over these next two weeks, and so 
the witnesses are excused and the hearing is now adjourned.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

               Statement by Vartan Gregorian, President, 
                    Carnegie Corporation of New York
    Carnegie Corporation of the New York appreciates the opportunity to 
submit this testimony to the U.S. House Committee on Science and 
Technology (Committee) on the reauthorization of the America COMPETES 
Act.
    From the work of Euclid to Ptolemy to Newton to Descartes, 
mathematics has laid the foundation for modern science. And from the 
time of the Renaissance on, science itself has been central to the 
development of modern society and the primary engine of global 
progress. Successes achieved in almost every field of human endeavor--
medicine, transportation, commerce, communication, engineering, 
security and defense, to name just a few--owe an incalculable debt to 
the evolution of math and science.
    As the Committee knows, in recent years the worldwide spread of 
technological advances has not resulted in an equally robust 
appreciation of mathematics and science among Americans. Now, however, 
we have entered into a new phase of globalization characterized by 
knowledge-based economies and fierce competition; the United States can 
no longer afford not to be fully engaged with math and science and 
their application to teaching and learning. If we believe, as the great 
education reformer Horace Mann did, that ``education is the engine of 
democracy,'' then the strength and progress of both American society 
and our democracy depend on our ability to mobilize around this work, 
with clear goals and great determination.

ROADMAP FOR REFORM

    Nine months ago the Carnegie Corporation of the New York-Institute 
for Advanced Study Commission on Mathematics and Science Education 
(Commission) released ``The Opportunity Equation: Transforming 
Mathematics and Science Education for Citizenship and the Global 
Economy.'' The report lays out what we believe is the definitive 
roadmap not only for the reauthorization of the America COMPETES Act, 
but also education reform overall. The report and the two years of 
study and deliberation that went into it are truly unlike any reform 
effort that has come before.
    Firstly, the Commission that authored the report did not just call 
for reform. Rather, its ultimate goal--its challenge to the nation--was 
far bolder: the United States must mobilize for excellence and equity 
in mathematics and science education. The Commission believed that the 
magnitude of the challenge demands transformative change in classrooms, 
schools, education systems and beyond. Educators, students, parents, 
universities, museums, businesses, scientists, mathematicians, and 
public officials at all levels will need to embrace a new understanding 
that the world has shifted dramatically--and that an equally dramatic 
shift is needed in educational expectations and the design of 
schooling. As a society, we must commit ourselves to the reality that 
all students can achieve at high levels in math and science, that we 
need them to do so for their own futures and for the future of our 
country, and that we owe it to them to structure and staff our 
educational system accordingly.
    Only through a national mobilization for mathematics and science 
learning will the need for change be made apparent to all Americans and 
the resources and commitment to the effort be brought to bear. In 
short, we need to mobilize in ways not unlike how the Nation fought and 
won two world wars, overcame the Great Depression, landed a man on the 
moon and secured civil rights for people of color. We believe that's 
how our fellow citizens, educators, and policymakers must begin to view 
it.
    Secondly, all students, not just a select few, or those fortunate 
enough to attend certain schools, must achieve much higher levels of 
math and science learning. By higher levels, we mean the requisite math 
and science skills to understand the natural world, the built 
environment, systems of society, and the interactions among them that 
will determine the future of our nation and planet. These are 
competencies that all Americans must have if they are to contribute to 
and gain from the country's future productivity, understand policy 
choices, and participate in building a sustainable future. Knowledge 
and skills from science, technology, engineering, and mathematics, the 
so-called STEM fields, are crucial to virtually every endeavor of 
individual and community life. Therefore, all young Americans should be 
educated to be ``STEM-capable,'' no matter what educational path they 
pursue, or in which field they choose to work.
    Thirdly, success in achieving excellent math and science learning 
for all students requires that math and science be placed more squarely 
at the center of the educational enterprise. Making improvements in 
only math and science education is not enough. Rather, we need to give 
at least equal weight to driving fundamental change throughout our 
educational system--in the nation's schools, school districts, and 
institutions of higher education.
    Finally, the ``Opportunity Equation'' goes beyond generalities. It 
lays out a comprehensive program of action, describing concrete steps 
that a range of stakeholders--from labor and business to Federal and 
state government, school districts, colleges and universities, non-
profit organizations, and philanthropy--can take. As the Committee 
undertakes the reauthorization of the America COMPETES Act, we urge it 
to use the report as a roadmap for reform.

STRENGTHENING THE AMERICA COMPETES ACT

    The reauthorization of the Act could very well be a defining moment 
in the history of math and science education reform. Through 
reauthorization the Committee, the Congress and the Nation have the 
opportunity to define what the Federal Government's role will be in 
leading this reform for the next decade and beyond. With ``Opportunity 
Equation'' as our guide, we at Carnegie Corporation of New York believe 
the Committee should reauthorize the Act in accordance with these 
fundamental principles:

EXCELLENCE AND EQUITY: MOBILIZING FOR MATH AND SCIENCE LEARNING
    As one of the most important expressions of national education 
policy, the Act should explicitly support the principle of higher 
levels of mathematics and science learning for all American students. 
We must place even our most disconnected students on pathways to 
graduation and postsecondary education. Moreover, our schools must 
provide more opportunities for the most successful students in math and 
science to accelerate beyond what is traditionally available in high 
school. Excellence and equity are vital and must be pursued in tandem.
    Put Math and Science Front and Center. To achieve the goals laid 
out in ``Opportunity Equation,'' the Commission believes that 
improvement in math and science outcomes, especially by historically 
underperforming groups, should be a benchmark in the design and 
evaluation of school improvement efforts at all grade levels and 
subject areas, including literacy, social studies, art, and service 
learning.
    U.S. Department of Education (ED) should build improvements in math 
and science learning into all of its major reform initiatives, as it's 
doing with the $4.35 billion Race to the Top (RttT). For example, RttT 
places an emphasis on funding innovative strategies for recruiting, 
credentialing, rewarding, and retaining math and science teachers.
    The Act should endorse the joint efforts of the National Governors 
Association and the Council of Chief State School Officers to develop 
Common Score Standards in mathematics and English language arts. The 
Act should also endorse the development of standards in science, which 
``Opportunity Equation'' strongly recommends, through the newly 
launched effort by the National Research Council to develop a framework 
for ``next generation'' science standards for elementary and secondary 
schools.
    Finally, the Act's existing STEM education programs should be 
funded, which has not yet happened since the Act's first passing and 
which Education Week reported on just last week.
    National and State Campaigns to Get the Public Behind Reform. The 
Federal Government should mount broad campaigns to increase public 
awareness of math and science as central to the revitalization of the 
economy and social mobility, as well as critical to success in a wide 
range of careers in many fields.
    Expand Opportunities for Excellence. Our schools must provide more 
opportunities for the most successful students in math and science to 
accelerate beyond what is traditionally available in high school. From 
afterschool programs to summer institutes to advanced coursework, we 
should not hold back our most promising students by limiting them to 
the resources within the walls of their schools.

INNOVATION IN EDUCATION: SUPPORTING CHANGE
    As the Commission discovered in its two years of study, there's 
been considerable innovation in the education sector, especially in 
recent years. New ``best practices'' and ways to disseminate them 
abound. Higher-quality assessments in mathematics and science have been 
developed, as have technology-based learning innovations. Nevertheless, 
as compared to other sectors, ``(e)ducation has long suffered from a 
lack of high-quality, dedicated research and development capacity,'' 
according to the Commission's findings. The ``Opportunity Equation'' 
report concludes, as follows:

         Finally--and this will be as important as anything to our 
        long-term success--the American educational system must upgrade 
        its own capacity to innovate. We need to get smarter about 
        developing and testing new ideas, tapping and advancing 
        professional knowledge, and putting best practices to use.

    Support Innovation through an `i3' for STEM. Carnegie Corporation 
of New York supports the Administration's FY 2011 Budget proposal to 
sets aside a portion of ED's Investing in Innovation Fund (i3) to 
support STEM projects. As Education Secretary Duncan explained, i3 for 
STEM would provide seed money for fresh ideas, help grow promising 
programs and scale up to a national level program with proven results.
    Incentives for Sharing with Federal Programs. The amount of private 
research and development, both among non-profit and for-profit 
education organizations, has never been greater. As importantly, major 
funding is available to finance this change--from the Federal 
Government as well as foundations. We've also learned a great deal over 
the past few years about what's working in education and what 
innovation in education looks like; examples include such success 
stories as New Leaders for New Schools, Teach for America, and The New 
Teacher Project. Private organizations could be incentivized to share 
their best practices and new knowledge with Federal programs for 
replication, dissemination, and scaling up.
    Leverage the Government's Vast Research Assets. The Federal 
Government has worked closely for decades with both industry and higher 
education on research and development, funding, and supporting 
innovation in defense, agriculture, aerospace and medicine, among 
others. The Federal Government should connect the education sector with 
these same companies, industries, and universities, and their 
innovation infrastructures, resources, scientific knowledge, and 
creativity.
    One avenue could be the creation of an Education Innovation 
Incubator, similar to Offices of Technology Transfer found at many 
companies, universities and governmental organizations. Federal 
research agencies could create and operate such an office for the 
benefit of education, tapping private research enterprises for new 
technologies that are readily transferrable to the education sector.
    Creating Incentives for Innovation in High-Need Areas. Meaningful 
incentives must be built into programs and grants to encourage the 
development of promising practices in high-need areas and answers to 
tough research questions. The need for such research is pressing in a 
number of areas: high-quality standards; assessments; professional 
development; teacher education; teacher evaluations; and partnerships 
with cultural, research and academic organizations.
    Support Promising Practices. In recent years government and private 
organizations have created an array of innovative approaches to 
improving math and science learning. These endeavors and others like 
them in their embryonic stage should be supported with funding and 
incentive systems to encourage expansion and even more innovation.
    Examples of promising practices and programs that should be 
encouraged, scaled up, and replicated include the Ohio STEM Learning 
Network; Texas Center for Science, Technology, Engineering, and 
Mathematics, which has established new models of STEM high schools and 
STEM teaching; the Teaching Institute for Excellence in STEM, which has 
shown how to grow new models and implement strengthened STEM education; 
North Carolina Museum of Natural Sciences' distance education program; 
and Urban Advantage, a partnership between the American Museum of 
Natural History and New York City Department of Education, which is 
being replicated in three cities. Many additional promising practices 
are noted in the ``Opportunity Equation.''

BETTER COORDINATION OF FEDERAL MATH AND SCIENCE EDUCATION ACTIVITIES
    As the Committee knows, the Federal Government's math and science 
education activities are varied, numerous, and often isolated. They're 
located in dozens, maybe hundreds, of agencies or offices. More than 
fifty years after Sputnik made math and science education a Federal 
priority, no permanent and on-going means exists to connect and 
coordinate the many math and science education and research activities 
across agencies.
    Interagency Council. Carnegie Corporation of New York supports the 
creation of a permanent interagency panel to coordinate both 
educational activities and research programs in the areas of math and 
science. We need a venue and body to connect the best minds in the 
Federal Government in these two critical areas.
    Linking Race to the Top to Other Initiatives. RttT is one of the 
most ambitious and best financed reform initiatives in recent memory. 
We applaud the U.S. Department of Education's inclusion of STEM as a 
competitive priority in RttT. A next step that could strengthen STEM 
education would be to improve the linkages between RttT and the best 
minds and programs in math and science education at Federal agencies. 
Such integration of math and science education reform into overall 
reform efforts is essential to successfully placing math and science 
more squarely at the center of the educational enterprise.

TEACHING AND PROFESSIONAL LEARNING: MANAGING FOR EFFECTIVENESS
    Classroom teachers are the primary asset of the American 
educational system, and they deserve savvy, strategic management. 
School systems need to recruit and develop qualified candidates for 
teaching and leadership roles, place them intelligently and equitably 
in the right positions, cultivate their skills, sustain their 
commitment over time, and monitor and manage their performance with 
relevant metrics. The Federal Government should offer support in these 
critical areas:
    Increase the supply of well-prepared teachers of math and science. 
The Federal Government should support the development of integrated 
programs of professional learning that engage all teachers in 
incorporating science and math learning across the curriculum. Through 
alternative certification and expanded recruitment, the Federal 
Government should encourage the creation of a strong science and math 
teacher corps.
    The government should also support the dissemination of effective 
human capital management practices in areas such as teacher 
recruitment, hiring and retention, and compensation.
    Improve professional learning. The Federal Government should 
continue to support and expand its efforts to provide opportunities for 
teachers to experience powerful science and math learning themselves. 
This includes support for programs that strengthen partnerships with 
science-rich institutions that create new learning opportunities for 
educators. The Congress should also increase its support for the 
Federal Government's various teacher institutes, scholarships and 
fellowships to expand the supply of well-trained math and science 
teachers. The talent within the government is an extraordinary asset--
the Nation should continue to leverage it for excellence in the 
classroom.
    Efforts to expand the use of master teachers and other strategies 
that strengthen practice, encourage continuous learning, and improve 
career satisfaction should also be supported.

CONCLUSION

    Carnegie Corporation of New York urges the Committee to consult 
closely the findings and recommendations of the ``Opportunity 
Equation'' report. If not a roadmap, it certainly offers valuable, 
well-reasoned and -researched guideposts for reform, many not found 
elsewhere. A summary of the recommendations relating to the role of the 
Federal Government can be found in Appendix 1.
    We appreciate this opportunity to share our views and 
recommendations on how the Nation can make the necessary improvements 
in math and science learning. We look forward to working with the 
Committee throughout the reauthorization process and urge it to take 
bold steps commensurate with the extraordinary economic and social 
challenges facing the country. There is no time or effort to waste.

APPENDIX 1

                Summary of the ``Opportunity Equation''

              Report's Recommendations for Federal Action

    The report's recommendations were presented in four priority areas; 
following are the recommended Federal roles in each:

Higher levels of mathematics and science learning for all American 
                    students

        <bullet>  Mobilize the Nation to improve math and science 
        education for all students

                  Mount campaigns that generate public awareness of 
                math and science as central to the revitalization of 
                the American economy and social mobility for young 
                Americans

                  Increase public understanding that math and science 
                are connected to a wide range of careers in many 
                fields--virtually any secure and rewarding job in any 
                sector of the economy

                  Build understanding and will among policymakers and 
                education, business, and civic leaders to close the gap 
                between current education achievement and the future 
                knowledge and skill needs of students

        <bullet>  Place mathematics and science at the center of school 
        improvement, and accountability efforts

                  Make improvement in math and science outcomes, 
                especially by historically underperforming groups, a 
                benchmark in designing and evaluating school 
                improvement efforts at all grade levels for all 
                students

                  Incorporate math and science learning as part of the 
                expected learning outcomes of initiatives in other 
                areas, including literacy, social studies, art, and 
                service learning

Common standards and assessments

        <bullet>  Establish common math and science standards that are 
        fewer, clearer, and higher and that stimulate and guide 
        instructional improvement and galvanize the Nation to pursue 
        meaningful math and science learning for all Americans

                  Endorse the National Governors Association and CCSSO 
                Common Core Standards Initiative process and the 
                creation of common, national standards that are fewer, 
                clearer, and higher in mathematics in English language 
                arts; urge the Common Core states to tackle science 
                standards in the next round of development

                  Support research and development activities that 
                strengthen our collective understanding of what all 
                students need to know and be able to do in order to 
                succeed in college, thrive in the workforce, and 
                participate in civic life

                  Take steps to increase public understanding of the 
                connection between better standards and better math and 
                science education for all students

        <bullet>  Develop sophisticated assessments and accountability 
        mechanisms that, along with common standards, stimulate and 
        guide instructional improvement and innovation in mathematics 
        and science

                  Incentivize development of higher quality 
                assessments in mathematics and science for use by 
                states and districts to evaluate teaching and learning 
                and guide instructional improvement

                  Fund research on the effects of new standards and 
                assessments on student performance and on instruction

Improved teaching and professional learning, supported by better school 
                    and system management.

        <bullet>  Increase the supply of well prepared teachers of 
        mathematics and science at all grade levels by improving 
        teacher preparation and recruitment

                  Invest in the analysis of supply and demand for 
                science and math teachers, especially in high-need 
                school districts and schools

                  Support recruitment programs for math and science 
                teachers; experiment with scholarships and pay 
                incentives

                  Alter certification requirements to allow qualified 
                candidates to enter teaching by innovative and rigorous 
                alternative routes; enable museums, research 
                institutions, and others to become teacher certifiers

                  Develop integrated programs of professional learning 
                and quality improvement for teachers of science and 
                mathematics; engage all teachers in professional 
                learning that enables them to incorporate science and 
                math learning across the curriculum

                  Make policy changes necessary to create an effective 
                talent corps for schools, including principals and 
                teachers, especially science and math teachers; 
                encourage the dissemination of effective human capital 
                management practices in areas such as teacher 
                recruitment, hiring and retention, and compensation

        <bullet>  Improve professional learning for all teachers, with 
        an eye toward revolutionizing math and science teaching

                  Create and incentivize opportunities for teachers to 
                experience powerful science and math learning 
                themselves

                  Cease support for professional development in 
                science and math that is disconnected from teaching 
                practices in schools; replace with investment in 
                strategic and coherent collaborative offering that link 
                coherent, sustained professional learning, rich in 
                relevant science and math content, to direct practice 
                changes in instruction in schools

                  Promote professional learning that engages teachers 
                in data analysis, identification of students' 
                differentiated learning needs, and assessment of 
                school-level interventions

                  Hold school leaders accountable for the professional 
                learning environment in their schools and districts

                  Strengthen partnerships with science-rich 
                institutions; use those partnerships to open new 
                learning opportunities for educators

                  Invest in sophisticated online professional 
                development systems that facilitate learning 
                communities and cyberlearning by teachers, along with 
                research to enable the improvement of those systems

                  Expand the use of master teachers and other 
                strategies that strengthen practice, encourage 
                continuous learning, and improve career satisfaction

        <bullet>  Upgrade human capital management throughout US 
        schools and school systems toward ensuring an effective teacher 
        for every student, regardless of socio-economic background

                  Make higher science and math achievement the 
                overarching goal for system improvement; structure 
                specific improvement strategies to meet that goal

                  Experiment with strategies to improve job 
                satisfaction of effective teachers of science and math 
                at all grade levels

                  Raise compensation strategically to attract, retain, 
                and reward effective science and math teachers; compare 
                different methods

                  Development data systems that enable meaningful 
                teacher assessment on student achievement

                  Identify and promote leadership opportunities (such 
                as positions as coaches and mentors) for teachers with 
                demonstrated effectiveness in raising student 
                achievement in mathematics and science

                  Give effective teachers a more prominent voice in 
                education policy development

New designs for schools and systems to deliver math and science 
                    learning more effectively

        <bullet>  Enhance systemic capacity to support strong schools 
        and act strategically to turn around or replace ineffective 
        schools

                  Create aligned data, accountability, and knowledge 
                management systems across K-16 education to support 
                research and development for improvements in policy, 
                practice, and strategy to increase student achievement, 
                graduation, and post-secondary success; ensure that 
                science achievement is included in the early generation 
                needs

                  Develop data and accountability systems that enable 
                schools to use data to inform instructional improvement 
                by individual teachers and school-wide; data on science 
                achievement, especially in middle and high schools

                  Make the policy and management changes to generate 
                and accelerate innovation, and facilitate connections 
                to increase the talent and math and science assets 
                available in schools

                  Foster a more rigorous approach to ongoing 
                professional learning, focused on keeping teachers up 
                to date with emerging science and math knowledge and on 
                effective, differentiated pedagogical techniques

                  Make policy changes and take administrative action 
                to end policies and practices that result in persistent 
                low achievement, and, in particular, close and replace 
                schools that are low-performing

                  Stimulate the production of ideas and products that 
                will support school and classroom innovations to 
                increase math and science achievement through a variety 
                of public funding sources beyond education including 
                economic development, energy, and environmental quality 
                departments

                  Identify school models and innovations in school 
                design and instruction that have shown substantial 
                achievement gains in mathematics and science, 
                especially for under-performing middle and high school 
                students

                  Remove barriers and pro-actively grow and scale 
                effective school models through innovative governance 
                and management arrangements with educational 
                entrepreneurs; integrate with strategic human capital 
                reforms

                  Call for research in areas where innovations do not 
                exist or where there is a need for new knowledge, 
                including basic research, implementation research, and 
                tool development to advance

        <bullet>  Tap a wider array of resources to increase 
        educational assets and expand research and development capacity

                  Narrow the gap between research and practice in 
                improving science and math education by designing 
                innovative partnerships between K-12 education and 
                universities, cultural and scientific institutions that 
                are accountable for joint strategies for improving 
                student achievement

                  Bring innovation and design approaches to bear on 
                improving math and science education in the K-12 
                educational system by developing R&D capacity and 
                external resources (such as consulting firms, private-
                sector companies, universities)






</pre></body></html>
